<html>
<title> - H.R. 51: MAKING D.C. THE 51st STATE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                  H.R. 51: MAKING D.C. THE 51st STATE

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2019

                               __________

                           Serial No. 116-62

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
 
 
 
 
 
 


                  Available on: http://www.govinfo.gov
                     http://www.oversight.house.gov
                        http://www.docs.house.gov
                        
                        
                        
                                ______

                U.S. GOVERNMENT PUBLISHING OFFICE 
 37-974 PDF                WASHINGTON : 2019                        
                        
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Paul A. Gosar, Arizona
Wm. Lacy Clay, Missouri              Virginia Foxx, North Carolina
Stephen F. Lynch, Massachusetts      Thomas Massie, Kentucky
Jim Cooper, Tennessee                Mark Meadows, North Carolina
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky
Harley Rouda, California             Michael Cloud, Texas
Katie Hill, California               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Frank Keller, Pennsylvania
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                Mark Stephenson, Director of Legislation
                          Amy Stratton, Clerk

               Christopher Hixon, Minority Chief of Staff

                      Contact Number: 202-225-5051
                      
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on September 19, 2019...............................     1

                               Witnesses

The Honorable Muriel Bowser, Mayor, District of Columbia
    Oral Statement...............................................     6
The Honorable Phil Mendelson, Chairman, Council of the District 
  of Columbia
    Oral Statement...............................................     8
Jeffrey S. DeWitt, Chief Financial Officer, District of Columbia
    Oral Statement...............................................    10
Kenneth R. Thomas, Legislative Attorney, Congressional Research 
  Service
    Oral Statement...............................................    12
Kerwin E. Miller, Veteran and District of Columbia Resident
    Oral Statement...............................................    14
Dr. Roger Pilon, B. Kenneth Simon Chair, Constitutional Studies
    Oral Statement...............................................    16

Written statements are available at the U.S. House of 
  Representatives Repository: https://docs.house.gov.

                           INDEX OF DOCUMENTS

                                 ------                                
The documents listed below are available at: https://
  docs.house.gov.

  * Rep. Connolly's Statement for the Record.

  * Unanimous Consent: Chairman Cummings' Opening statement; 
  submitted by Rep. Norton.

  * Unanimous Consent: Rep. Norton's Statement for the Record.

  * Legal analysis from the American Civil Liberties Union 
  Finding that H.R. 1 is constitutional; submitted by Rep. 
  Norton.

  * The testimony of former George W. Bush Administration 
  Assistant Attorney General Viet Dinh from the 2014 Senate 
  Homeland Security and Governmental Affairs Committee hearing on 
  D.C. Statehood, where Mr. Dinh declared that H.R. 51 is 
  constitutional; submitted by Rep. Norton.

  * A list of 130 organizations, including 104 national ones, 
  that have endorsed H.R. 51, endorsing D.C. Statehood; submitted 
  by Rep. Norton.

  * Letter endorsing H.R. 51 from the SEIU; submitted by Rep. 
  Norton.

  * Letter endorsing H.R. 51 from the NAACP; submitted by Rep. 
  Norton.

  * Letter endorsing H.R. 51 from the NTEU; submitted by Rep. 
  Norton.

  * Letter endorsing H.R. 51 from the NARFE; submitted by Rep. 
  Norton.

  * Letter endorsing H.R. 51 from the National Urban League; 
  submitted by Rep. Norton.

  * Letter endorsing H.R. 51 from the National Education 
  Association; submitted by Rep. Norton.

  * Letter endorsing H.R. 51 from the Friends Committee on 
  National Legislation; submitted by Rep. Norton.

  * Letter endorsing H.R. 51 from the Planned Parenthood 
  Federation of America, and Planned Parenthood of Metropolitan 
  Washington, D.C.; submitted by Rep. Norton.

  * Letter endorsing H.R. 51 from DC Vote and its coalition; 
  submitted by Rep. Norton.

  * Letter endorsing H.R. 51 from Georgetown University; 
  submitted by Rep. Norton.

  * Letter endorsing H.R. 51 from George Washington University; 
  submitted by Rep. Norton.

  * Letter endorsing H.R. 51 from the D.C. business and major 
  employer community; submitted by Rep. Norton.

  * Letter endorsing H.R. 51 from the Federal City and 
  Washington, D.C. Alumnae Chapters of Delta Sigma Theta 
  Sorority, Inc.; submitted by Rep. Norton.

  * Letter endorsing H.R. 51 from Ralph Nader; submitted by Rep. 
  Norton.

  * Unanimous Consent: Article, "GSA Ignored Constitution on 
  Trump D.C. Hotel Lease," Politico; submitted by Rep. Raskin.

  * Letter requesting a Minority Hearing Day; submitted by Rep. 
  Jordan.


                  H.R. 51: MAKING D.C. THE 51st STATE

                      Thursday, September 19, 2019

                   House of Representatives
                  Committee on Oversight and Reform
                                           Washington, D.C.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton presiding.
    Present: Representatives Norton, Maloney, Clay, Lynch, 
Cooper, Connolly, Krishnamoorthi, Raskin, Rouda, Hill, 
Wasserman Schultz, Sarbanes, Kelly, DeSaulnier, Plaskett, 
Khanna, Gomez, Ocasio-Cortez, Pressley, Tlaib, Jordan, Foxx, 
Massie, Meadows, Hice, Grothman, Gibbs, Norman, Higgins, Roy, 
Miller, Armstrong, Steube, and Keller. Also present: 
Representative Hoyer.
    Ms. Norton. The committee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time.
    I want to say good morning to everyone. I hope that those 
who are out in the hall and cannot get into this room will find 
their way to the two overflow rooms that we have put aside for 
them.
    I want to welcome everyone to this historic hearing on H.R. 
51, legislation that would make Washington, DC, our Nation's 
51st State. Unfortunately, Chairman Cummings is not able to be 
here today. So he asked me to chair today's hearing and to read 
his opening statement.
    With that, let me recognize myself at this time.
    For Chairman Cummings, ``I am extremely proud that our 
committee is holding the first hearing on D.C. Statehood in the 
House of Representatives in more than 25 years. Neither chamber 
of Congress has ever passed a Statehood bill. I hope ours will 
be the first.
    ``H.R. 51 now has 220 cosponsors, which is a record for any 
previous D.C. Statehood bill. For the first time in a 
generation, there is real and sustained momentum behind this 
effort. This legislation would fulfill the promise of democracy 
for more than 700,000 Americans who call Washington, DC, their 
home.
    ``D.C. residents are American citizens. They fight 
honorably to protect our Nation overseas. They pay taxes. Not 
many people know this, but D.C. pays more in total Federal 
taxes than the residents of 22 states. And it pays more per 
capita than any state in the Nation.
    ``D.C. residents have all of the responsibilities of 
citizenship, but they have no congressional voting rights and 
only limited self-government. These fundamental disparities for 
hundreds of thousands of Americans are inconsistent with the 
core principles embodied in our Constitution.
    ``When our Nation was founded, it was based on the belief 
that no people should be subjected to taxation without 
representation or be governed without their consent. The Boston 
Tea Party was one of the most famous illustrations of this 
fight, refusing to accept laws and taxes in which they had no 
say.
    ``Everyone on this panel, in this room, and across the 
country should be able to agree with this core value. Even our 
colleagues today in the modern-day Tea Party movement continue 
to pay homage to this bedrock principle.
    ``There is nothing more fundamental in a democracy than the 
right to vote. As the Supreme Court has said--and I am quoting 
the Court--'No right is more precious in a free country than 
that of having a voice in the election of those who make the 
laws under which, as good citizens, we must live. Other rights, 
even the most basic, are illusory if the right to vote is 
undermined.'
    ``In President Dwight D. Eisenhower's 1956 State of the 
Union address, he said this. 'Once again, I ask the Congress to 
join with me in demonstrating our belief in the right of 
suffrage. I renew my request that the principle of self-
government be extended and the right of suffrage granted to the 
citizens of the District of Columbia.'
    ``Today, more than 60 years after President Eisenhower said 
those words, D.C. residents overwhelmingly support Statehood. 
In 2016, an astonishing 86 percent voted in favor of becoming a 
state.
    ``The Congress now has an opportunity to live up to the 
Constitution's goals. Statehood will give D.C. residents full 
and equal democratic rights. Unfortunately, there is not one 
Republican cosponsor of this bill. In June, Senate Majority 
Leader Mitch McConnell called D.C. Statehood 'full-bore 
socialism.' I don't know what this means.
    ``We have 50 states now, and no one has ever claimed that 
adding one to our Union and giving the representatives in 
Congress a vote was somehow evidence of socialism. The truth is 
that most of my colleagues on the other side of the aisle 
oppose statehood because they believe it could dilute their 
power.
    ``In 2016, then-Governor John Kasich was very blunt about 
this. He said--and I am quoting the Governor--'What it really 
gets down to, if you want to be honest, is because, you know, 
that is just more votes for the Democratic Party.'
    ``The right to democracy should not be contingent on party 
registration. Today, I urge all members of this panel to rise 
above our partisan differences and think through this issue on 
the merits. I urge everyone to have a respectful and robust 
debate with the fundamental goals of our Founding Fathers at 
the forefront of our debate.
    ``As President Abraham Lincoln declared in the Gettysburg 
Address, 'A true democracy is government of the people, by the 
people, and for the people.'
    ``I thank all our witnesses for being here today. I also 
thank the people of the District of Columbia, who have shown so 
much drive and determination, many of whom are watching today's 
historic hearing with great interest.''
    I now recognize the distinguished ranking member for his 
opening statement.
    Mr. Jordan. Madam Chair, thank you for today's hearing.
    I want to thank our witnesses. I appreciate you all being 
here. Appreciate the folks that serve in the District 
government. And Mr. Miller, appreciate your service to our 
country.
    I hope we can have a frank discussion about the future of 
the District of Columbia. Any discussion about the future of 
D.C. would not be complete without a discussion about the 
District's current challenges. 1995, due to a financial crisis 
brought about by corruption and mismanagement, the Federal 
Government had to take control of the D.C. budget. I wish I 
could say the situation has improved, but this is simply not 
the case.
    For Fiscal Year 2020, the District requested $15.5 billion 
from Congress, a burden borne by taxpayers in Virginia and 
Maryland, Ohio and California, taxpayers all across the 
country, frankly. In fact, local revenue sources only account 
for half of D.C.'s funding sources. The District is simply not 
yet self-sustainable.
    Taxpayers nationwide currently foot the bill for the D.C. 
courts, unfunded pension liabilities, and the care and custody 
of D.C. prisoners. The District also receives other subsidies 
from the Federal Government, including $45 million for the 
improvement of D.C. public school system.
    And we cannot ignore the elephant in the room, ladies and 
gentlemen. The District government currently faces serious 
allegations of misconduct. We hope to have an honest 
conversation about some of these issues this morning, which is 
why we asked Chairman Cummings to invite D.C. councilmember and 
former Metro chairman Jack Evans to testify today. However, the 
chairman denied that request.
    Instead, he asked the inspector general for the Metro to 
examine Mr. Evans' misconduct. But just yesterday, in the same 
room when we asked that the Metro inspector general testify at 
the subcommittee hearing, we were denied. We were denied 
because the Democrats said the Metro inspector general wasn't a 
true inspector general. He wasn't part of the inspector general 
community. The hearing yesterday was the head of the inspector 
general association, but we were denied our witness.
    Here is what we do know from the documents we have 
obtained. Mr. Evans tried to obstruct an internal Metro 
investigation into his misdeeds, threatening the jobs of Metro 
employees who actually cooperated with the internal 
investigation. He had a consulting relationship with companies 
that were Metro vendors or sought to do business with the 
Metro. Evans did not disclose these conflicts of interest to 
the Metro board.
    Mr. Evans attempted to exploit his position on the Metro 
board for his own personal benefit. He even urged--and this is 
probably the one that bothers me the most. He even urged the 
inspector general, an inspector general investigation into a 
vendor that competed with his consulting client, tried to sic 
the authority of government on someone to benefit his own 
personal client. Evans planned to sell his government access 
and connections to private companies for his own personal gain.
    And recognize, too, that the Jack Evans scandal does not 
appear to be an isolated incident. The same documents we have 
obtained show that another D.C. representative on the Metro 
board helped Evans to obstruct the internal investigation by 
harassing staff and preventing the board from having a quorum 
to meet.
    Sadly, the allegations against Mr. Evans are just the 
latest in a series of local D.C. political scandals. Mr. Barry, 
Mr. Gray, Jim Graham, Kwame Brown, Michael Brown, Harry Thomas 
Jr.--all recent elected D.C. officials with a cloud of scandal. 
Some are actually serving time in jail.
    We cannot and should not ignore these unpleasant facts. I 
understand that supporters of H.R. 51 believe that much of the 
current District of Columbia should become the 51st state, but 
this is not what the Founding Fathers intended. They understood 
and they carefully crafted the Constitution so that the seat of 
the Federal Government would purposely and specifically not be 
within a state.
    Let us look at what the Constitution says. Article I called 
for the creation of a Federal District to serve as the 
permanent seat of the national government and granted Congress 
the power ``to exercise exclusive legislation in all cases 
whatsoever, over such district not exceeding 10 square miles as 
may, by cession of particular states and the acceptance of 
Congress, become the seat of the Government of the United 
States.''
    In fact, James Madison in Federalist No. 43 articulated 
that if the capital city were situated within a state, the 
Federal Government would be subject to undue influence by the 
host state.
    Under H.R. 51, the Federal Government would be entirely 
dependent upon the new state of Washington, DC, for water, for 
utilities, for infrastructure, communications, even police and 
fire services. By virtue of this relationship, this new state 
would have incredible power over the other states. That is why 
this issue deserves an honest discussion.
    Of course, I support voting rights. But let us be clear. 
H.R. 51, even if signed into law, could not turn Washington, 
DC, into a state. In order for the District to become the 51st 
state, Congress needs to pass and the states need to ratify an 
amendment to the Constitution.
    The Constitution does not distinguish between the seat of 
the Federal Government and the district where the government is 
seated, meaning the Constitution would, in fact, need to be 
changed. In fact, Justice Departments of both parties going 
back to 1963 have determined that Congress cannot admit D.C. as 
a state legislatively.
    The chair, in her opening statement, said our opposition is 
about power. That is just not the truth. That is not the case. 
It is about the Constitution. If you want to change it, there 
is a remedy, and it requires amending the Constitution of the 
United States.
    Madam Chair, finally, we had asked for transcribed 
interviews for certain witnesses. We had asked for witnesses to 
be present at both yesterday's hearing and today's hearing. All 
of those requests were denied. So pursuant to clause 2(k)(6) of 
Rule XI, I move the committee subpoena Jack Evans of the D.C. 
Council and ask that we take this matter up now.
    Madam Chair, with that, I yield back. But we have a motion, 
obviously, on the table.
    Mr. Connolly. Madam Chairman?
    Ms. Norton. I thank the gentleman for his motion. And we 
will attend to his motion presently.
    First, I want to correct for the record, the Federal 
Government provides 23 percent of the District's revenue. 
Nationally, the Federal Government provides 32 percent of state 
government revenue.
    Mr. Meadows. Point of order.
    Ms. Norton. I am correcting for the record.
    Mr. Jordan. Madam Chair, but we have got----
    Mr. Meadows. Point of order, but----
    Mr. Jordan. We have got a motion on the table. We have got 
a motion that we have offered. Clause 2(k)(6) of Rule XI 
provides that at hearings, the chair shall receive and the 
committee shall dispose of requests to----
    Ms. Norton. All right. We have checked with the 
parliamentarian, and we are able to place this motion in 
abeyance and dispose of it before the hearing's conclusion. I 
indicated that we would, in fact, deal with the motion. This 
will be done out of courtesy to all of the witnesses and to 
give adequate notice to all members.
    We know that members have obligations in other committees 
today. We will consult with the other committees and announce 
at a time certain to return and to consider this motion. You 
will be heard.
    The gentleman----
    Mr. Jordan. Madam Chairman, are you suggesting our motion 
is not in order?
    Ms. Norton. I am suggesting that we will hear the motion, 
and I have said when we will hear the motion. And that is the 
end of that.
    Mr. Jordan. Madam Chair, if our motion is in order, it has 
to be dealt with immediately.
    Ms. Norton. You are incorrect. We have checked with the 
parliamentarian.
    Mr. Jordan. So have we.
    Ms. Norton. It has to be dealt with. It does not have to be 
dealt with when you say. It has to be dealt with before the end 
of this hearing.
    We are going to move on. As to Jack Evans, the minority has 
a witness today, Mr. Roger Polin of the Cato Institute. On 
Monday, the ranking member requested a second minority witness, 
Jack Evans, who is subject to an ongoing Federal criminal 
investigation.
    As we understand it, the purpose of asking Mr. Evans to 
appear before this committee is to answer questions about 
allegations that he engaged in unethical conduct relating to 
the Washington Metropolitan Area Transit Authority. The 
allegations against Mr. Evans have nothing to do with D.C. 
Statehood and the fundamental suffrage of 700,000 American 
citizens.
    The voting rights of American citizens and their 
representatives Congress have never been and never will be 
contingent on state and local officials never engaging in 
misdeeds. Certainly, officials in Ohio, if I may say so, have 
been the subject of multiple political scandals for many years, 
including one from 2018 that I won't go into in detail. But no 
one suggests that Ohio ought to lose its state or status, and 
nobody has seriously questioned Ohio's fitness to be a state.
    Chairman Cummings has already addressed this witness issue 
in a September 18, 2019, letter, which I am entering into the 
record.
    Ms. Norton. And Chairman Connolly will have a subcommittee 
hearing on this issue because his subcommittee hearing will be 
on WMATA, and he will take this issue up at that hearing.
    Now to move forward, I didn't finish. I want to simply name 
who the witnesses will be and then ask to hear from them. The 
Honorable Muriel Bowser, the Mayor of the District of Columbia; 
the Honorable Phil Mendelson, the chairman of the Council of 
the District of Columbia; Jeffrey S. DeWitt, the Chief 
Financial Officer for the District of Columbia; and Kenneth R. 
Thomas of the congressional Research Service; Kerwin E. Miller, 
a veteran of the District of Columbia; and Mr. Roger Pilon, who 
is B. Kenneth Simon Chair of Constitutional Studies at the Cato 
Institute.
    If you would please all rise and raise your right hands?
    Mr. Meadows. Madam Chairman, point of order.
    Ms. Norton. The gentleman will state his point of order.
    Mr. Meadows. Yes. So Rule 2(k)(6)--well, actually, clause 
2(k)(6) of Rule XI is--states that we are entitled to those 
minority witnesses. And while I appreciate the chairwoman's 
suggestion that Mr. Evans comes at a future hearing, it is this 
hearing that we think that it would be critical to have his 
input on.
    So I would raise that point of order, suggesting that it is 
this hearing where he would be required to testify.
    Ms. Norton. The gentleman has not stated a valid point of 
order.
    Mr. Meadows. Well, then I will rephrase it because it is a 
valid point of order, and I will challenge the parliamentarian 
on that. I am raising clause 2(k)(6) of Rule XI, and in that, 
it is a critical component that the minority is allowed 
witnesses.
    Ms. Norton. The minority has a witness. You have not stated 
a valid point of order.
    Mr. Meadows. Witnesses, plural. Witnesses, plural. I mean, 
you know, I guess you could have 40 witnesses, and we could 
have 1. That is not what the rule states.
    Ms. Norton. You will have a vote on your motion. You have 
been granted a vote on your motion.
    Mr. Meadows. Today?
    Ms. Norton. Today. Before the end of the hearing.
    Mr. Meadows. All right. I will withdraw----
    Ms. Norton. Will you raise your right hand----
    Mr. Meadows. Well, I will withdraw my point of order.
    Ms. Norton. I appreciate that, sir.
    Do you swear to tell the truth, the whole truth, so help 
you God?
    [Response.]
    Ms. Norton. Please be seated.
    We will begin with Mayor Muriel Bowser.

  STATEMENT OF HON. MURIEL BOWSER, MAYOR, DISTRICT OF COLUMBIA

    Mayor Bowser. Madam Chair, Ranking Member Jordan, and all 
members of this esteemed committee, thank you for hosting this 
historic hearing on H.R. 51, the Washington, DC, Admission Act, 
to make Washington, DC, the 51st state.
    I want to especially thank you, Congresswoman Norton, for 
championing equality for D.C. for your entire tenure while 
skillfully delivering jobs, opportunity, and greater self-
determination.
    I am Muriel Bowser, Mayor of Washington, DC, and I am 
honored to be here today to ask Congress to act upon the 
request of my residents to admit Washington, DC, to join the 
United States of America as the 51st state. I want to be clear. 
I am not here to talk about one person, but about 702,000 
Americans who deserve full representation in this House.
    I was born in Washington, DC, and generations of my family, 
through no choice of our own, have been denied the fundamental 
right promised to all Americans, the right to full 
representation in the Congress guaranteed by statehood. Over 
the years, there have been a lot of arguments against 
statehood. You're too small, they say. But we're bigger by 
population than two states, bigger than all states but Oklahoma 
at the time they were admitted to the Union.
    What's more, we pay more Federal taxes per capita than any 
state, and we pay more Federal taxes total than 22 states.
    You're badly governed, they say. In fact, we do a better 
job than most states. We have a budget of $15.5 billion, which 
we have balanced 24 times in the last 24 years. And we already 
do the things that states do. We operate our own schools. We 
manage state Medicaid programs. We receive Federal block 
grants.
    Like states, we issue driver's licenses, license plates, 
and birth and death certificates. We regulate banks and 
insurance companies, operate our state-based affordable care 
marketplace, and we enforce environmental regulations. For the 
purposes of thousands of Federal laws, we act as a state, and 
we do it well.
    The Constitution forbids it, they say. That one is simply 
false, as constitutional experts have repeatedly proclaimed. Or 
D.C. can't be a state because the Constitution requires a 
Federal District. The Constitution sets a maximum size of 10 
miles square for the Federal District, but it does not 
prescribe a minimum size to qualify for a Federal District or 
statehood.
    I am sure we'll hear some of that again this time, but 
let's face it. These are bad faith arguments by people who 
really oppose statehood because they think it will mean two 
Democratic Senators. The fact is denying American citizens a 
vote in this body that taxes them goes against the very 
founding premise of this Nation.
    Yes, it is true that we are more brown and more liberal 
than some of you. But denying statehood would be unfair no 
matter who was affected. It would be unfair if we were 
conservatives from a rural district built around agriculture or 
an industrial city in the heartland. This is America, and 
Americans are entitled to equal protection under the law. 
That's why we are demanding statehood.
    It should not matter what our politics are or what yours 
are. That's beside the point. The point is that to continue to 
deny statehood to 702,000 residents of Washington, DC, is a 
failure of the Members of this body to uphold their oath of 
office.
    I would likewise fail to do my duty by not forcefully 
advancing our statehood petition. The lack of statehood 
deprives us of more than just full representation in this 
Congress. It has practical and dire consequences.
    Our men and women register and are subject to the draft, 
but we have no congressional vote on whether to go to war. 
Since World War I, Washington, DC, has sent nearly 200,000 
brave men and women to defend and fight for democracy abroad. 
Tragically, 2,000 of those patriots never made it home.
    The Supreme Court and other Federal judges render judgments 
binding on us, but we lack Senators who can vote on their 
confirmations. We pay Federal taxes, but we have no vote on how 
those taxes are appropriated. The prosecutors of our criminal 
laws are Federal officials, not elected by the residents of 
Washington, DC.
    Worse, we are abused by Congress in ways that would be 
unconstitutional if we were a state. If I may, I wish to point 
you back to the civil rights era. Neither the emancipation of 
this country's formerly enslaved people nor the reconstruction 
amendments meant to finally guarantee them their constitutional 
rights brought about the promise of liberty on which this 
country was founded.
    Instead, it took decades of struggle, the bravery of 
thousands, and the leadership of singular voices in this 
country to force that change. Among those leaders were elected 
representatives from this very House of both political parties 
who banded together and put politics aside for higher 
principles and simple fairness.
    In the past, granting self-government and voting 
representation to D.C. residents has garnered bipartisan 
support. There is no doubt that opponents of statehood have 
turned it into a partisan question. But ultimately, it comes 
down to fairness.
    So I leave you with this question. Does Congress truly 
believe that the promise of democracy extends to all Americans, 
as outlined in the United States Constitution? Women and men, 
north and south, blacks and whites, Latinos and Asians, born 
here and from other lands, Democrats and Republicans.
    Will Congress rise above temporal partisan considerations 
and act like the statesmen and women that you are, to grant us 
the statehood we overwhelmingly endorsed at the polls.
    I thank you, Madam Chair, for having me here and welcome 
any questions.
    Ms. Norton. Thank you very much, Mayor Bowser.
    We will hear next from Chairman Phil Mendelson, who is 
chairman of the D.C. City Council.

  STATEMENT OF HON. PHIL MENDELSON, CHAIRMAN, COUNCIL OF THE 
                      DISTRICT OF COLUMBIA

    Mr. Mendelson. Thank you, Chairwoman Norton, Ranking Member 
Jordan, and members of the committee.
    I am Phil Mendelson, chairman of the Council of the 
District of Columbia, and joining me in this room are other 
councilmembers, Councilmembers Allen, Bonds, Gray, Grosso, 
McDuffie, Nadeau, Silverman, Todd, Robert White, and Trayon 
White.
    I am pleased to be testifying today on behalf of the 
council in support of H.R. 51. Full and fair representation for 
the 703,000 citizens residing in the District of Columbia is 
only possible through achieving statehood, and so I urge this 
committee and this Congress to move favorably and expeditiously 
on this measure.
    I want to make two fundamental points. First, it is time to 
recognize that the citizens of the District are citizens of the 
United States, with all of the responsibilities of citizenship, 
but they don't have the full rights of U.S. citizenship.
    We send our sons and daughters to war. We pay more in 
Federal taxes than 22 states. We pay more per capita than any 
state. There is nothing asked of citizens in the 50 states that 
is not asked of citizens of the District of Columbia.
    And we step up. We pay our dues, but we do not have the 
most important privilege of U.S. citizenship. We do not have a 
vote in Congress, nor do we have sovereignty like the 50 
states. That is all we ask, that Congress give us what it has 
given the citizens of 37 other states--full citizenship, 
statehood.
    We have sought incremental gains since the 1973 Home Rule 
Act, but the incrementalism still leaves us short. Statehood is 
the only way to give our citizens locally elected 
representatives, to enact purely local laws that will not be 
subject to national debates over divisive social issues. It is 
the only way to ensure a judicial system that is representative 
of community values.
    Statehood is the easiest way to give residents a full, 
guaranteed, and irrevocable voice in the national legislature. 
Statehood means the United States citizens of the District of 
Columbia will have the same rights and privileges enjoyed by 
the United States citizens of the 50 states.
    My second point is that opponents give lots of arguments 
against statehood, but none of them overcome the basic 
principle that there should be no taxation without 
representation. Many Americans believe, incredibly, that the 
District government is still an agency of the Federal 
Government, operating with Federal appropriations, meaning 
Federal dollars. Therefore, they say we should not have 
statehood.
    They are wrong. We are not a Federal agency. Seventy-seven 
percent of our total budget is local dollars. Twenty-four 
percent--excuse me, 22.4 percent is Federal formula spending 
that includes Medicaid and Federal grants available to all the 
states. And less than one percent, less than one percent is 
Federal payments unique to the District.
    Many opponents have argued that the District is not capable 
of governing itself in a fiscally responsible manner. Well, 
today the District's financial status is the envy of 
jurisdictions across the country. Our fundamentals are solid. 
Our population is growing. Our revenues are growing. Our 
spending stays within budget year after year.
    Both our pension and other post-employment benefits funds 
are fully funded, using conservative actuarial assumptions. No 
other state, no other state can boast this. Our reserve soon 
will be equal to 60 days operating costs, a best practice.
    Some have argued that population size is a 
disqualification. While we are small, population should not be 
a disqualification. Indeed, the District's population is 
greater than that of Vermont or Wyoming--and Wyoming. And given 
our population growth, it is realistic to say we may surpass 
other states in size.
    And then some argue that retrocession is a better 
alternative and that it makes historical sense. But this is 
unpopular with the citizens in both the District and Maryland. 
You may say ``so what'' to the citizens of the District, but 
you cannot say that to the citizens of Maryland. Congress 
cannot force retrocession on Maryland. So it is impractical.
    Another argument is that the Constitution intended it to be 
this way. I disagree. I don't believe the Founding Fathers 
actually intended this. There is no evidence of discussion--of 
discussion about disenfranchising the citizens of the Federal 
District.
    Rather, James Madison in Federalist No. 43 wrote that the 
citizens of the Federal District ``will have had their voice in 
the election of the Government, which is to exercise authority 
over them.''
    Additionally, the Constitution is a great document, but it 
was not perfect, as evidenced by its 27 amendments. The 
original method for electing the President and Vice President 
was flawed. The method for electing Senators has changed. Civil 
rights has changed radically, such as the Thirteenth Amendment 
that abolished slavery and the Nineteenth Amendment expanding 
suffrage to women.
    Indeed, the issue before us is about civil rights, about 
the civil rights of District citizens to full citizenship, 
except that Congress can accomplish this by adopting H.R. 51. 
Not only can each of these arguments be countered, but 
actually, they fail to overcome the fundamental principle that 
there should be no taxation without representation.
    Not only are we not an agency of the Federal Government 
existing off its Treasury, but even if we were, that is not a 
reason to deprive 703,000 individuals full sovereignty and 
representation in Congress. Not only are we small, but that is 
irrelevant to whether 703,000 individuals should enjoy full 
citizenship.
    Not only do we run our government well, but we run it 
better than other states, and they have Statehood. Because how 
well people run their government has nothing to do with whether 
they should be treated as United States citizens.
    Self-governance is the essence of democracy and freedom. 
The only option to gain both full representation, voting 
representation and full self-governance is to adopt H.R. 51 and 
grant Statehood to the District.
    Thank you.
    Ms. Norton. Thank you very much, Chairman Mendelson.
    Mr. Jeffrey DeWitt, the Chief Financial Officer for the 
District of Columbia.

   STATEMENT OF JEFFREY S. DeWitt, CHIEF FINANCIAL OFFICER, 
                      DISTRICT OF COLUMBIA

    Mr. DeWitt. Good morning, Chairwoman Norton, Ranking Member 
Jordan, and members of the House Committee on Oversight and 
Reform.
    I am Jeffrey S. DeWitt, Chief Financial Officer of the 
District of Columbia. The Office of the Chief Financial Officer 
is an independent agency charged with ensuring the long-term 
financial health and viability of the District of Columbia.
    I am pleased to provide testimony today on the strength of 
the District's finances and economy, the current relationship 
between the District's budget and the Federal Government, and 
how the District can transition to statehood.
    The District of Columbia has made a remarkable journey to 
its strongest financial position in its history, with a 
positive general fund balance of exceeding $2.8 billion. Today, 
the District sits at the highest-possible credit rating of AAA, 
an accomplishment achieved by only 10 of the 25 largest cities 
and a rating higher than 35 other states.
    This turnaround is a testimony to the financial practices 
put in place that continue to be enhanced by the District's 
elected leadership and key stakeholders. The District's 
financial practices include a balanced budget, a multiyear 
financial plan, a six-year capital improvement plan, quarterly 
revenue estimates to ensure spending stays on track, a self-
imposed debt limit to restrict excessive borrowing, and best 
practices when it comes to cash reserves.
    District law sets a cash reserve policy of 60 days of 
operating revenues, as compared to the federally mandated 
requirement of only approximately 22 days. The District has 
implemented a comprehensive capital asset inventory system and 
a long-range financial and capital plan to bring all assets or 
infrastructure to a state of good repair within the next 10 
years.
    No other city or state in the United States has developed 
an implementable plan to reach this goal. The District has also 
fully funded its public safety and teacher pension trust funds, 
as well as its retiree healthcare trust funds, a level no other 
state can claim.
    Finally, the District has achieved 23 consecutive years of 
clean audits, as verified by outside independent auditors. The 
District and the Washington Metropolitan Area have developed 
into a vibrant and dynamic economic region with diversifying 
economic base and a fast-growing private sector.
    Attached to my testimony are graphs to show the growing 
influence of the private sector on the District's economy. 
Continued solid economic performance, population growth, and a 
stable housing market mean that future revenue forecasts will 
remain strong to fund both the necessary programs and to bring 
the District's infrastructure to a state of good repair.
    In many respects, the District's economy already functions 
as a state. The District collects personal and business income 
taxes, administers workers' unemployment compensation programs, 
and runs a Department of Motor Vehicles. Additionally, it 
provides local services to its businesses and residents that 
include police, fire, public works, and it operates a school 
district.
    The District is similar to many states in that we receive 
Federal grants, mostly for Medicaid, education, human services, 
and transportation. The District's budget is comparable to 
states, and its reliance on Federal dollars is a part of total 
revenue.
    A 2016 study estimated that the 50 states average 32 
percent of their state revenue from Federal grants in aid. In 
the District, only 23 percent of the Fiscal Year 2020 revenue 
will come from Federal sources. This illustrates that the 
District relies less on Federal dollars to balance its budgets 
than a considerable number of states.
    The District's population is approximately 700,000, making 
it the 20th largest city in the United States, according to the 
Census. However, roughly an equal number of workers from 
Virginia and Maryland, many of them Federal, come to the 
District every day to work, doubling the population served 
during business hours.
    Services, operations, and infrastructure must be sized to 
handle this large level of commuter population. In addition, 
approximately 30 percent of our total commercial property is 
owned by the Federal Government. Foreign mission buildings are 
another category of nontaxable property disproportionately 
located in the District.
    Between the diplomatic and federally owned buildings, we 
estimate that the District foregoes annually about $640 million 
in real property tax revenues. With the transition to 
statehood, we expect certain functions managed by the Federal 
Government will fall to the new state. The true financial 
impact of the District of Columbia statehood will depend on 
policy decisions yet to be made by Congress and the newly 
elected government.
    It is also expected that a negotiated compact between the 
Federal Government and the District will clarify many of these 
necessary details. My office stands ready to advise on the 
policies being considered, the revenues that could be 
generated, and the effects of budget allocations to accommodate 
these new state functions.
    In conclusion, the fiscal foundation of the District is 
extremely strong. By working with the Federal Government on a 
smooth transition, the District is capable of transitioning to 
statehood and overcoming any potential fiscal challenges that 
may lie ahead due to its strong financial condition and 
institutionalized best management practices.
    I thank you for the opportunity for me to testify today, 
and I am happy to answer any questions you may have.
    Ms. Norton. Thank you very much, Mr. DeWitt.
    Kenneth R. Thomas of the congressional Research Service, 
you may proceed.

     STATEMENT OF KENNETH R. THOMAS, LEGISLATIVE ATTORNEY, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. Thomas. Chairwoman Norton, Ranking Member Jordan, and 
members of the committee, my name is Ken Thomas. I'm a 
legislative attorney with the American Law Division of the 
congressional Research Service.
    I'd like to thank you today for inviting me to testify 
regarding H.R. 51, the Washington, DC, Admission Act. My 
testimony today will be directed to the issue of whether 
Congress has the constitutional authority to implement H.R. 51, 
which would create a state called Washington, Douglass 
Commonwealth, out of a portion of the existing District of 
Columbia.
    H.R. 51 would admit the populated portions of the District 
of Columbia as a state, leaving behind the Federal enclave of 
governmental buildings and land. This proposal raises a variety 
of novel constitutional issues. The three constitutional 
provisions that are most obviously implicated are the 
admissions clause, the district clause, and the Twenty-Third 
Amendment.
    I'd first like to address the admissions clause, which 
provides that Congress can admit states to the Union, but it 
cannot create a state from portions of another state without 
that state's permission. Now the argument has been made that 
because the District of Columbia was created from lands that 
were ceded from Maryland, that Maryland would be able to 
reclaim that land if it is no longer being used for the Federal 
District.
    If Maryland does have this reversionary interest, it 
arguably must consent to that land being used to make a state 
because of the requirements of the admissions clause. Now if 
Maryland does consent to the creation of the new state, this 
would avoid any constitutional concern. On the other hand, it's 
not clear there is a reversionary interest in the land.
    The Maryland statute that ceded the land to the Federal 
Government does not contain an explicit reversionary 
implication--reversionary interest. So if a reversionary 
interest does exist in this land, it would be by implication. 
Maryland state property law, which would appear to be an 
analogous law for this situation, does not generally favor 
implied reversionary interest in land transfers.
    Next I'd like to address the district clause, which 
authorizes Congress to establish the District of Columbia. Now 
an argument has been made that the Founding Fathers intended 
that once the District of Columbia was established, its size or 
location could not be changed. Under this argument, Congress 
cannot implement H.R. 51 because it would reduce the size of 
the District. However, the only explicit language, as Mayor 
Bowser pointed out, in the district clause regarding the size 
of the district is that ``it shall be no larger than 10 miles 
square.''
    Further, Congress has previously reduced the size of the 
District of Columbia, retroceding land on the west side of the 
Potomac back to Virginia in 1856.
    Another argument has been made that even if the district 
clause does not contain an explicit minimum size requirement, 
it contains an implicit minimum size requirement. Under this 
theory, the Founding Fathers wanted the District to be 
sufficient in size and population so that it does not need to 
rely on any other state for its safe and efficient operation.
    The concern is that the passage of H.R. 51 would leave the 
Federal Government dependent on the infrastructure and services 
of the newly established state.
    Now an evaluation of the infrastructure and services that 
the proposed state would provide the Federal Government is 
beyond the scope of my testimony today. However, the 
flexibility provided to Congress under the admission clause to 
choose not only the location, but also the size of the District 
suggests that the Founding Fathers intended to leave at least 
some of this determination to the Congress.
    Thus, even if there is an implied size requirement found to 
exist in the Constitution, the courts might well defer to 
Congress' decisions regarding whether the size of the remaining 
district is sufficient for the safety and operation of the 
Federal Government.
    The final concern that has been expressed is that having a 
Federal District with little or no population is inconsistent 
with the Twenty-Third Amendment, which authorizes the District 
to appoint three Presidential electors. Arguably, H.R. 51 as 
statute would either make the Twenty-Third Amendment a dead 
letter, or it would empower a very small number of people still 
living in the District, such as the President and his family 
who reside in the White House, to exercise three electoral 
votes.
    Well, now in general, properly authorized Federal statutes 
that results in a constitutional provision falling into disuse 
does not, by itself, run afoul of the Constitution. On the 
other hand, if the persons who remained in the Federal District 
were to try to exercise their right to three electoral votes, 
it's not clear how the courts would respond.
    Thank you for this opportunity, and I would be happy to 
answer any questions.
    Ms. Norton. Thank you very much.
    And we go to our final--not our final witness, actually, 
but to our next witness, Mr. Kerwin Miller, who is a veteran 
and a District of Columbia resident.

STATEMENT OF KERWIN E. MILLER, VETERAN AND DISTRICT OF COLUMBIA 
                            RESIDENT

    Mr. Miller. Good morning, Chairwoman Norton, Ranking Member 
Jordan, distinguished members of the committee, and guests.
    I am attorney Kerwin Miller, a Washington, DC.-born third-
generation D.C. resident and third-generation military veteran.
    As a 1975 Naval Academy graduate and retired Naval Reserve 
commander with 28 years of military service, I am particularly 
honored and privileged to be able to testify on behalf of our 
702,000 residents, especially our 30,000 D.C. military veteran 
residents.
    Joining me this morning along with our other proud D.C. 
patriots is Ms. Jan Adams, president and CEO of JMA Solutions, 
a D.C. veteran who is 24-year retired Air Force chief master 
sergeant, and also my fellow 2019 D.C. Hall of Fame inductee 
for business.
    I am also joined this morning by Mr. Eliot Tommingo, the 
current director of the Mayor's Office of Veterans Affairs, a 
14-year D.C. veteran, and a currently serving U.S. Marine Corps 
Reserve major.
    Together, we urge this Congress to enact H.R. 51 to provide 
for the mission of state of Washington, DC. into our Nation's 
union.
    With the enactment of H.R. 51, Congress has the perfect 
opportunity to demonstrate definitively to our deserving 
military veterans and all of our deserving D.C. residents that 
our grateful nation appreciates and thanks our D.C. military 
veterans.
    If I may speak to my fellow veterans on this committee--
Congressmen Higgins, Green, Steube--with your support, Congress 
can thank our D.C. military veterans by standing up for them 
now and doing the honorable and, quite frankly, the only right 
thing and vote yes to approve H.R. 51.
    Your yes votes will unequivocally demonstrate that D.C. 
military veterans have more than earned this basic right to 
have a voice in the election of those who make our laws.
    D.C. military veterans have fought and died in every 
American war since the American Revolution, and as the mayor 
say, almost 200,000 D.C. veterans have served in the military 
since World War I.
    During Vietnam, 243 D.C. veterans were casualties of war 
and that is a greater number of military veterans than 10 U.S. 
states whose military veterans have the right of congressional 
representation.
    My fellow D.C. military veterans are tremendous patriots 
who have earned all of the rights to which other Americans are 
entitled.
    As the first director of the Mayor's Office of Veterans 
Affairs, I had the distinct honor to present a D.C. Mayor's 
Resolution at the funeral honoring the incredible military 
service of Trooper First Sergeant Mark Matthews, the oldest 
living original Buffalo Soldier and the oldest living D.C. 
military veteran when he passed away and was laid to rest in 
Arlington Cemetery with full military honors.
    Congress, stand up for Trooper Mark Matthews, who honorably 
served but still didn't have the right to congressional 
representation.
    On several occasions, I visited the District of Columbia's 
VA Medical Center and one of its assisted living residents, 
Corporal Alice Dixon, a D.C. World War II veteran who served in 
the all-black female 6888 Central Postal Directory Battalion of 
the Women's Army Corps.
    Congress, stand up for Corporal Dixon, a D.C. veteran who 
lived for 108 years without ever having the right to voting 
representation in Congress.
    President Trump said in his July 4 Independence Day speech 
on the steps of the Lincoln Memorial, and I quote, ``We are one 
people, chasing one magnificent dream,'' unquote.
    Congress, you have the responsibility to stand up for our 
D.C. residents and make sure that part of the one people 
emphasized in the president's speech comes to fruition.
    Congress must fulfill its duty to stand up for our Nation's 
D.C. residents, who have earned the right to full citizenship 
that is afforded to all U.S. citizens.
    Finally, there is but one conclusion--that D.C. military 
veterans have a fundamental right and earned benefit to have a 
voice in the election of those representatives who make our 
laws.
    D.C. Statehood is the only means by which our D.C. 
residents can have equal citizenship. Congress must now do the 
only right thing and stand up and be counted for our D.C. 
military veterans who have stood up for you and were counted 
for you.
    This concludes my testimony. Thank you in advance for 
standing up for our D.C. veterans and residents and enacting 
H.R. 51 to make D.C. our 51st state.
    I look forward to responding to any questions that you may 
have. Thank you.
    Ms. Norton. Thank you very much, Mr. Miller, for that 
testimony. We are proud of you as a graduate of the Naval 
Academy and I want to thank you for your service and the 
veterans from the District of Columbia who stood with you just 
now.
    Finally, we want to hear from Dr. Roger Pilon. He is B. 
Kenneth Simon Chair of Constitutional Studies at the Cato 
Institute.
    Mr. Pilon?

       STATEMENT OF ROGER PILON, B. KENNETH SIMON CHAIR, 
             CONSTITUTIONAL STUDIES, CATO INSTITUTE

    Mr. Pilon. Thank you, Ms. Norton, and let me join you in 
thanking Mr. Miller for his service.
    I want to thank the committee for the invitation to testify 
and thank Mr. Jordan in particular for the opportunity to offer 
a discordant note to--and to--at least you got one.
    In my oral testimony I am going to touch on only the few 
points in my written testimony before getting into the 
constitutional issues. However, let me take a moment to put 
this bill in political context.
    Even if it were to pass the House, there is little chance, 
I think we will all agree, that it would even come up in the 
Senate, much less get to the president's desk.
    In fact, the last time a similar bill was voted in the 
House in 1993 it lost 277 to 153. I realize that is a different 
posture today, but the Senate and our president remain as I 
said.
    What is more, as a constitutional matter, that question 
won't be settled here, of course, but in the Supreme Court. So 
we are engaged here in mere speculation.
    On that constitutional question, I fully grant that there 
is a credible case on either side of the question, although, 
obviously, I am of the view that the better argument is that it 
will take a constitutional amendment to turn the District of 
Columbia into our 51st state.
    My reasons for believing that start with the sheer history 
given the failure of attempts like this one, to say nothing of 
the more than 200 years during which the District has existed 
in its present state, save for the small retro session in 1847. 
There must at this point in time be a strong presumption 
against the kind of radical changes envisioned by this bill.
    In a word, it strains credulity to believe that the 
Framers, when they drafted the Constitution's enclave clause, 
imagined the tiny enclave contemplated by this bill.
    As I read it, however, the twist in this bill as opposed to 
the Senate bill of a few years ago, is that with several 
noteworthy exceptions this bill is patterned after the process 
through which Federal territories have been admitted as states 
to the Union.
    If that is the case, while the Federal district may have 
been a territory for a brief period before the government moved 
here, we are long past that.
    More to the constitutional point, the District of Columbia 
is a sui generis entity expressly provided for by the 
Constitution in clear contemplation of its becoming the seat of 
the new Federal Government, which it has been for more than two 
centuries.
    It is provided for by Article 1 Section 8 Clause 17 of the 
Constitution, the enclave clause, not by Article 4 Section 3, 
which provides for the admission of new states from territory 
and prior to any admission the regulation of Federal territory.
    This proposal bootstraps its procedures under Article 4. I 
don't think that will fly in any court, not, certainly, in the 
Supreme Court.
    Regarding the reduction of the District to a tiny enclave 
or on the National Mall, to be sure, the Framers did not set a 
minimum size for the District.
    But their mention of 10 miles square, together with 
Congress's nearly contemporaneous 1790 creation of the District 
from land 10 miles square, makes for--ceded from Maryland and 
Virginia is strong evidence of what they intended, strong 
evidence too against this enclave scheme.
    But beyond this plain language and its implications, this 
bill would strip Congress's present authority over today's 
District of Columbia simply by redefining the District.
    Most important, perhaps, there is the core constitutional 
principle at issue here--the doctrine of enumerated powers.
    Congress has only those powers that people have delegated 
to it as enumerated in the Constitution, mainly, in Article 1 
Section 8.
    There is a power to create the District, no power to do 
what is contemplated here. Now, I know proponents of this bill 
draw all manner of implied powers from those granted. But I 
find those arguments strained and conclusory, as every Justice 
Department has found that has looked at similar or related 
proposals since the time of Attorney General Robert Kennedy.
    Then again, the consent of Maryland would seem to be 
required and the implications of that are in my written 
testimony.
    Finally, even my co-panelist, Mr. Thomas, has written that 
the Twenty-Third Amendment presents, quote, ``a significant 
question for this bill.''
    To return, finally, to a political point, as a June Gallup 
poll showed, not even Democrats support D.C. Statehood. Among 
Americans generally, 29 percent support D.C. Statehood. Sixty-
four percent oppose it. I don't see this bill going anywhere.
    Thank you.
    Ms. Norton. Thank you very much, Mr. Pilon.
    I note that the House majority leader has joined us. 
Without objection, Mr. Hoyer is authorized to participate in 
today's hearing.
    I now recognize Mr. Hoyer for five minutes.
    Mr. Hoyer. Thank you very much, Madam Chair.
    There is a red light. We are on.
    [Laughter.]
    Mr. Hoyer. Does anybody out there want to hear what I have 
to say?
    [Laughter.]
    Mr. Hoyer. Is it working? Okay.
    Madam Chair, thank you very much, and Madam Mayor and 
Chairman Mendelson and others who are here at the table, thank 
you very much for your presence.
    I want to thank Chairman Cummings and Ranking Member Jordan 
and, certainly, Eleanor Holmes Norton, my dear colleague and 
very close friend who has been a champion of this issue for her 
entire life as well as her career in the Congress of the United 
States.
    I strongly support statehood for people--for the people of 
the District of Columbia. I have been a strong proponent, as I 
think everybody, hopefully, in this room knows of 
representation in the House for the residents of Washington, 
DC. for my career.
    In fact, I have said around the country that one of the 
greatest blots on our democracy is having 700,000 of our 
citizens unable to be fully represented in the Congress of the 
United States.
    And I have come to the conclusion that the only way to 
remove that blot is to be for statehood. As the previous 
speaker said, this was Maryland. It is now the District of 
Columbia.
    But the fact of the matter is if it were still Maryland 
those 700,000 would have all of the voting rights and, 
therefore, we must make the District of Columbia, larger than 
two other states in the Union, a member of the United States 
with full rights--a pertinent thereto, as the degrees says.
    I view this as one of the most important civil rights and 
voting rights issues of our day. As I said, more than 700,000 
Americans live here without full rights. That is wrong, and we 
in Congress need to fix it.
    The citizens have a wonderful advocate in this House in 
Eleanor Holmes Norton. But she is still prohibited from voting 
on passage of legislation affecting her constituents.
    Now, we have extended to the extent we could the right to 
vote in the Committee of the Whole. But that is not nearly 
enough. Full citizenship, full statehood is required.
    Even if it had been successful that D.C. residents would 
still have a vote in the House, it would not be enough. If the 
District were to become a state, it would be a larger 
population than Vermont and Wyoming, as I have pointed out and 
as you have pointed out, Madam Mayor.
    Statehood would also allow District residents the full 
measure of self-government afforded the rest of the states, 
removing the intrusion of congressional rule, which often runs 
counter to the wants and needs of Washingtonians.
    A great Marylander and a citizen of the District of 
Columbia as well, Frederick Douglass, said, ``Power concedes 
nothing without a demand.''
    Madam Chair, what we see here is the representatives of the 
people of Washington demanding full participation in the rights 
of their country.
    The hard work over the years by Congresswoman Norton and 
others--advocates for D.C. representation--provides the demand 
to which power, in this case Congress, must concede.
    Madam Chair, I hope today's hearing will provide additional 
clarity on how a statehood process might play out and how best 
to achieve the goal of providing full and equal representation 
to the people who live in Washington, DC, many of whom serve 
our Nation ably in government as Federal employees or 
contractors. But all are fellow citizens.
    For their sake and for the sake of justice, for the sake of 
our Constitution, for the sake of the principles that we hold 
sacred, extending statehood to the District of Columbia must be 
our objective and our result.
    I thank you for this opportunity.
    Ms. Norton. Thank you very much, Majority Leader Hoyer. I 
thank you for coming. I thank you for co-sponsoring H.R. 51.
    I want to go now to Mr. Hice for five minutes.
    Mr. Hice. Thank you, Madam Chair. I appreciate all our 
witnesses being here.
    The issue really today comes down--there are several issues 
but at the end of the day we are dealing with a constitutional 
issue and therein a constitutional problem.
    I think our Founders wisely gave us a Federal city for the 
purposes of the Federal Government, and when that is mixed up 
with and intertwined with state government, it is going to get 
messy and our Founders had the wisdom to give us a Federal city 
in which to do Federal business.
    If we have issues like problems with D.C. having a voice 
for voting, it required an amendment to change that, to provide 
that--the Twenty-Third. Is that correct, Dr. Pilon?
    Mr. Pilon. Absolutely----
    Mr. Hice. I didn't hear you.
    Mr. Pilon. There is--no one on this side is opposed to 
voting. It is just that you have got to bring the vote about 
the right way--the constitutional way.
    Mr. Hice. That is right. It is a constitutional issue.
    Mr. Pilon. Absolutely.
    Mr. Hice. And when it became an issue of elections, making 
sure D.C. had a voice, it required a constitutional amendment 
to correct that and we have it. It is the Twenty-Third 
Amendment.
    And Congress, in the Constitution, has been granted the 
exclusive authority in all matters whatsoever in this Federal 
city--in the District of Columbia.
    So let me--let me just ask you. I have got you, Dr. Pilon. 
Let us go on. Does Congress have any authority to change the 
Constitution apart from the amendment process?
    Mr. Pilon. None whatsoever. You cannot change the 
Constitution by a mere statute.
    Mr. Hice. None whatsoever. So is what we are--what brings 
this discussion today would the admission of the District of 
Columbia as a state require a constitutional amendment?
    Mr. Pilon. As I read the Constitution it would because it 
is sui generis. It is unique. It is provided for in Article 1 
Section 8 Clause 17.
    The idea that you can bootstrap the argument over to 
Article 4 just simply strains credulity. It is a sleight of 
hand argument.
    Mr. Hice. I read it exactly the same way you do. So does 
Congress have the authority to alter the status of the District 
through legislation?
    Mr. Pilon. No.
    Mr. Hice. Just want that to be made very, very clear.
    So if, somehow, this body violates the Constitution, in my 
opinion, in yours and that of many others, and proceeds with 
statehood, do you think that statehood status for the District 
would affect the Federal Government's ability to operate and 
for our own security, for that matter?
    Mr. Pilon. This body violates the Constitution on a daily 
basis. Let us start with that.
    Mr. Hice. Alrighty. Fair enough.
    Mr. Pilon. Okay. And, in fact, none more so than with the 
demise of the doctrine of enumerated powers. Congress 
legislates in vast areas that it has no authority in under 
Article 1 Section 8 of the Constitution.
    Now, your question about how it would affect relationships, 
with this tiny enclave constituting the District of Columbia, 
you would have the Federal Government, in this tiny sense, 
surrounded by a single state.
    That is precisely what James Madison feared, recalling what 
happened in Philadelphia under the old Articles of 
Confederation, and he spoke of dependency and interdependency.
    The Federal Government would be dependent upon the state 
for all manner of goods and services and the District of 
Columbia--excuse me, this new 51st state would be, first of 
all, our first and only city-state.
    It has none of the characteristics that Madison set forth 
that would describe a state. So we will have it also dependent 
on the Federal Government in ways that it is not currently 
because the Federal Government would then lose plenary 
authority over the District, which it enjoys now, because 
ultimately the control of the District is through the Senate 
when the Senate has--the Congress--when the Congress has to 
step in.
    Mr. Hice. Thank you.
    In the few seconds I have left, and I agree, we violate the 
Constitution. We have 17 enumerated powers. Everything else is 
to be left to the states.
    Mr. Pilon. Eighteen.
    Mr. Hice. Eighteen, depending on how you count.
    The Twenty-Third Amendment--how is it in jeopardy with this 
movement to statehood? And will yield back with that.
    Mr. Pilon. Well, under the Twenty-Third Amendment, you 
would--under this proposal you would still have some people 
with their rights under this amendment--under this proposal to 
select electors.
    But their power to do so, being so few in number, would be 
vastly greater than those of any citizens in the rest of the 
country. And so that would pose a problem right there.
    But, again, the core issue is that they are attempting to 
get around the Twenty-Third Amendment by merely redefining the 
District and that is, certainly, inconsistent with the spirit 
and probably the letter of the Twenty-Third Amendment.
    Ms. Norton. Thank you very much, Mr. Hice. Don't worry 
about the Twenty-Third Amendment. I think without--with great 
alacrity that amendment would be repealed.
    No one wants to give the District more electoral votes than 
it is entitled to. We just want the vote we are entitled to.
    I will recognize myself for five minutes.
    The Constitution doesn't even describe what it takes to 
become a state. There are some so-called--I will call them 
qualifications that have been used and, by the way, in light of 
what the gentleman, Mr. Hice, said, there is nothing in the 
Constitution that bars the Nation's capital from becoming a 
state.
    It should be noted that the capital of every country in the 
world, in the democratic world, has the same rights as 
everybody else.
    The qualifications that have been used have been commitment 
to democracy. Residents have to support it and the state must 
be able to support itself.
    So I am going to ask, I suppose, Mayor Bowser and Chairman 
Mendelson, perhaps Mr. DeWitt, just do you think that the 
District has met those qualifications--commitment to democracy, 
support for statehood, and resources to support the state?
    Mayor Bowser. Thank you, Congresswoman, and the answer to 
all of those questions is yes.
    As you know, in 2016 there was an advisory referendum on 
the ballot where residents of the District of Columbia were 
asked those questions--do you support statehood, do you endorse 
the boundaries of the new 51st state of the United States of 
America, are you committed to representative government--and 
there was a overwhelming vote yes.
    Eighty-six percent of the people advised the Council to 
approve our new Constitution, to approve the boundaries of the 
new state, and petition this Congress for statehood.
    Ms. Norton. Mr. DeWitt, the District for more than 200 
years paid for all state functions. That is really quite 
extraordinary.
    Then it went through a tough patch. So I think it is fair 
to ask you whether you think that the District has the 
resources necessary today to pay for all state functions.
    Mr. DeWitt. Congresswoman Norton, the District is in the 
best financial state it has been in its history. We have 
reserves that are higher than they have ever been and we have 
the ability, as we have shown, coming through the 
Revitalization Act of the mid-'90's to do what is necessary to 
balance our budget every year, and as the CFO of the District I 
would be required to make sure that that would happen in any 
budget that went forward that could handle the responsibilities 
of statehood.
    So yes, we would be able to do that.
    Ms. Norton. I think you are--we don't have--I think the 
District's chief financial officer is different from any post 
in the United States.
    Would you describe how your relationship to the budget of 
the District of Columbia could the mayor and the city council 
give us a budget that was not balanced and claim it is balanced 
the way some state governments do? How does--how do we know 
that your budget is balanced?
    Mr. DeWitt. Under Federal law, I am required to certify 
that the budget that is sent to Congress every year in terms of 
revenues and expenditures, looking at the Federal 
contributions, the local revenues, and all the things that are 
together to ensure that it is balanced before it comes to 
Congress.
    So that is what we have done for----
    Ms. Norton. So suppose the District's budget was not 
balanced. You are not an elected official. What could you do if 
the mayor and the city council put together a budget that 
looked like it was balanced on paper, but when you put your 
eagle eyes to it, it didn't seem balanced? What could you then 
do?
    Mr. DeWitt. I am required to certify it by law. So it could 
not go forward. It could not be approved without certification 
by the District's chief financial officer.
    Ms. Norton. You know, I have heard of nothing like that in 
any other state. Would the District be willing to keep a chief 
financial officer with that kind of power if it became the 51st 
state? The kind of power that no state up here has? Would you 
leave that in place?
    Mr. Mendelson. Madam Chairwoman, the constitution that we 
adopted as part of our petition to Congress----
    Ms. Norton. Would you speak up, please?
    Mr. Mendelson. The constitution that we adopted as part of 
our petition to Congress maintains the independence of the 
chief financial officer. We recognize the value of the 
relationship the way it is.
    Ms. Norton. Thank you very much. Appreciate those answers.
    I next call upon Mr. Norman.
    Mr. Norman. Thank you, Madam Chair. I want to thank the 
panelists.
    Mr. DeWitt, you are the chief financial officer. Is that 
right?
    Mr. DeWitt. Yes, sir. That is correct.
    Mr. Norman. And you say the budget is in good shape. Is the 
budget for 2020 still $15.5 billion?
    Mr. DeWitt. Yes, that is correct.
    Mr. Norman. Okay. I have got a pie chart that I just broke 
the percentages down, and if you take the local provided by the 
District of Columbia it is 55 percent.
    When you add up all of the others, you come up to, roughly, 
33 percent, which only gives you 88 percent of the budget. Of 
that, Medicaid--Federal grants and Medicaid is 22.4 percent.
    Now, if this is--if statehood is granted, which I agree 
with Representative Hice, this is a constitutional malfeasance 
if it is done.
    But if it is, how are you going to make up the Medicaid, 
which is based on a per capita, which, if it becomes a state, 
you are going to have to go to the--right now, you do it from 
the your Act that was passed in 1977, I think. How are you 
going to make up the difference?
    Mr. DeWitt. Congressman, just like every other state, when 
we became a state Medicaid is a benefit provided to every 
state. The District would continue to get Medicaid from the 
Federal Government.
    As I mentioned in my testimony, we are currently--23 
percent of our total budget comes from the Federal Government. 
The average for the states is 32 percent.
    Medicaid would not go away when we become a state. We 
would----
    Mr. Norman. It wouldn't go away but the dollars coming into 
the state are going to be reduced. Would you not agree?
    Mr. DeWitt. I would--I would say that would be up to 
discussion because one of the things that you look at are those 
states that receive the higher Medicaid match.
    It is the percent of the--the percent of people in poverty 
of some of those states. Like Arizona and places like that get 
a 70 percent match.
    So I would argue we will continue to get the same match 
that we do now.
    Mr. Norman. Yes, but you are getting 70 percent now. It 
would drop to 50 if you do away with the Act of 1977, wouldn't 
it?
    Mr. DeWitt. I would argue that it should stay at 70 through 
the discussions. But even if it didn't, it would be in the $400 
million range and we could manage that through making choices 
in the budget that went forward by my office. It would require 
the decision to certify to do that.
    Mr. Norman. So then if you get to----
    Mr. DeWitt. So we could handle it if it did go down.
    Mr. Norman. If you get the approval for that, it is going 
to be in violation of what every other state's match is.
    Mr. DeWitt. Even if we don't, we could--we could balance 
the budget with that.
    Mr. Norman. All right. Let me ask this. If it is in such 
good shape, why, according to a 2019 study, did the District of 
Columbia 150th out of 150 of the largest cities for its 
operating efficiency?
    Mr. DeWitt. I do not--I wouldn't know what that study is 
and I would have to disagree with it based on what I know.
    Mr. Norman. So the study is wrong?
    Mr. DeWitt. I don't know what--you would have to tell me 
what the study is, Congressman.
    Mr. Norman. Okay. I can provide you the study. But, 
basically, they--it is a nonbiased study. Out of 150 cities----
    Ms. Norton. Would you name the study, please? Would the 
gentleman name the study?
    Mr. Norman [continuing]. D.C. ranked 150th.
    Mr. DeWitt. I think the thing you have--Congressman, you 
have to look at, and they don't hand these out--we have a AAA 
bond rating that 35 states do not have, and only a few large 
cities do have.
    That is your criteria of whether you are----
    Mr. Norman. Okay. Let me provide you with the study and 
then you give feedback on that.
    Mr. DeWitt. Sure.
    Mr. Norman. Mayor Bowser, you would agree that transparency 
in government is very important, wouldn't you?
    Mayor Bowser. Congressman, we have been very committed in 
our city to transparency in government and, in fact, have been 
very proud to advance some of the toughest transparency rules, 
ethics rules, data transparency rules anywhere in the Nation.
    Mr. Norman. Okay. Then let us talk about the corruption of 
the Washington Metropolitan Area Transit Authority. I think, as 
has been mentioned by Congressman Jordan and Jack Evans, who 
was forced to resign because of his personal financial benefit, 
Corbett Price, who you recommended to the Board who was your 
appointee who, if my records are right, gave $35,000 to your 
campaign in 2014. Was that the right choice of the person? His 
background is in health care, not in transit.
    Mayor Bowser. As I mentioned at the outset, Congressman, we 
are here to talk about the 700,000 residents of the District of 
Columbia----
    Mr. Norman. I get that. I am just asking you a simple 
question.
    Mayor Bowser.--who don't have representation. We are more 
than committed to making sure that our representatives in any 
forum are following----
    Mr. Norman. But Mr. Price had to resign, right?
    Mayor Bowser. I am sorry?
    Mr. Norman. Mr. Price resigned.
    Mayor Bowser. He did.
    Mr. Norman. Would you appoint him again?
    Mayor Bowser. I have made an appointment to replace----
    Mr. Norman. Would you appoint Mr. Price again?
    Mayor Bowser. I have appointed Lucinda Babers.
    Mr. Norman. I yield back the balance of my time.
    Ms. Norton. I thank the gentleman for yielding.
    Mr. Clay?
    Mr. Clay. Thank you, Madam Chair. Let me thank the 
witnesses for your testimony today.
    And Mr. DeWitt, I appreciate that D.C. has successfully 
turned the page on the days of guidance and oversight from the 
Financial Control Board and I appreciate your testimony 
describing for us the current position of D.C. finances and 
revenue and its ability to operate as a state and how D.C. is 
in better shape fiscally than some recognized existing states.
    And as we talk revenue, I am particularly interested in the 
new sports wagering measures D.C. is entering. In fact, I wrote 
you a letter in February inquiring about it, and D.C. will be 
at the forefront of this venture.
    Can you tell me about the anticipated revenue from this 
venture?
    Mr. DeWitt. Congressman, the revenue from that relative to 
our total budget is relatively small. But our forecast, looking 
at it, we believe they are conservative--in the range of about 
$20 million a year. So it is a small number relative to that.
    Our lottery itself generates about $45 million to $50 
million. So it will be smaller than the lottery, at least when 
it gets started. But it will bring additional revenue in, which 
is part of our budgeting process and part of the resources that 
we have in the District.
    Mr. Clay. And the reasoning for you all moving so quickly 
was to beat Maryland and Virginia as far as competition was 
concerned, correct?
    Mr. DeWitt. It was to take advantage of the Supreme Court 
law that allowed for sports gaming to go in place and to take 
advantage of that revenue and, obviously, the ones that go 
earlier are going to do better. But it was just to take 
advantage of the right to have sports gaming in the District.
    Mr. Clay. And when do you imagine placing bets will begin 
in D.C.?
    Mr. DeWitt. We are in the process of putting--the 
regulatory environment has been put in place so the licensing 
will begin as soon as we can get in place the ability to 
evaluate the viability of the people that are going to be 
bidding.
    So toward the end of the year or maybe a bit earlier we 
will be able to take sports bets at local facilities and mobile 
vending would be allowed early in 2020.
    Mr. Clay. Is the sports wagering revenue earmarked for a 
specific state purpose, i.e., public education or social 
services?
    Mr. DeWitt. It is--it is going to be part of the general 
fund and so it is part of the revenue sources of the general 
fund. It is not specifically dedicated to education.
    Mr. Clay. Okay. Do you have any concerns about the 
contract?
    Mr. DeWitt. The contract was done in--no, I do not.
    Mr. Clay. Okay. Fair enough.
    Mayor Bowser?
    Mayor Bowser. Yes, Congressman.
    Mr. Clay. Thank you for being here today.
    Strategy wise, have we ever considered partnering with 
another territory in this--that is part of the United States, 
and I will use Puerto Rico as an example.
    Have you ever thought about partnering so that we come in 
with 51 and 52 as far as states are concerned? Has there ever 
been any discussion in regard to that?
    Mayor Bowser. Well, thank you for that question, 
Congressman.
    Certainly, I can speak for the residents of Washington, DC. 
who have overwhelmingly endorsed statehood, and we are ready 
for statehood. You heard our Congresswomen talk to you about 
the vote that identified our boundaries, our Constitution.
    You have heard from our CFO that we are financially ready 
to move forward, and we have a petition before this House to do 
exactly that.
    Mr. Clay. Yes, and, I mean, I support it. I support 
statehood for the District of Columbia, but also just hearing 
the criticism from the other side they talk about 51 states.
    Would it--I mean, wouldn't it be--wouldn't it make sense to 
not just say at two senators but four at one time?
    Mayor Bowser. For us?
    Mr. Clay. For the country.
    [Laughter.]
    Mayor Bowser. I would take that.
    Mr. Clay. For the Nation.
    Mayor Bowser. For the Nation. Absolutely.
    So, like I said, I can speak for us and I know that Puerto 
Ricans will speak for themselves through their representatives 
and at the polls, and I can say for sure that we are ready.
    And as for the criticisms that we have heard so far, 
Congressman, if I may address. The question was asked can this 
Congress admit D.C. as a state and the simple answer is yes.
    There have been 37 states admitted by simple legislation 
from this Congress. The question was asked can this Congress 
make the Federal enclave smaller, and clearly, the Framers had 
every opportunity to describe a minimum size for the Federal 
enclave.
    They didn't. They described the maximum size. It has been 
questioned whether the state, the 51st state, would overpower 
the Federal enclave, and we know the Framers were concerned 
with state power then.
    States had much more power than a fledgling Federal 
Government. That is not the case now. We have a massive Federal 
Government that overpowers all of the surrounding states.
    So those critiques simply don't hold water.
    Mr. Clay. And you are correct. In 240 years, things do 
change in this country----
    Mayor Bowser. Yes.
    Mr. Clay [continuing]. and I thank you for that and yield 
back.
    Ms. Norton. I thank the gentleman, and could I remind the 
gentleman that the gentleman had himself a candidate for a 
company for the lottery.
    And if the District became the 51st state nobody would care 
about another member's interest in the lottery.
    Mr. Clay. I am not sure--I am not sure what the relevance 
is, Madam Chair. But----
    Ms. Norton. Since I heard that is what you had brought up, 
sir, you gave us a very good reason why we----
    Mr. Clay. I am so glad--I am so glad I finally got a 
response to my letter. Thank you.
    [Laughter.]
    Ms. Norton. Yes. I want it to be known that I informed the 
District they didn't need to respond to a letter about the 
internal workings.
    Mr. Clay. So we don't need oversight here? You said we 
could----
    Ms. Norton. That is why we want to become the 51st state in 
the United States.
    Mr. Clay. Well, but wait a minute. That is what this 
committee is. It is called the Oversight Committee.
    Ms. Norton. This committee--we need to put this committee 
out of business and----
    Mr. Clay. Oh, really?
    Ms. Norton [continuing]. that is what this bill is about to 
do.
    Mr. Clay. Thank you so much, Madam Chair.
    Ms. Norton. But I do appreciate your support for statehood 
for the District of Columbia.
    Mr. Clay. Thank you.
    Ms. Norton. Thank you very much. He sits next to me in this 
committee so I will let him pass.
    Mr. Gibbs?
    Mr. Gibbs. Thank you, Madam Chair.
    It seems to me, listening to the discussion, this comes 
down, really, to two issues. The concern our Founding Fathers 
had, that the District should not be--you know, [in] conflicts 
with the state--in the state and that--that and the rights of 
the now the 700,000 people the right to vote.
    I look back here in the history and I will be interested to 
hear what our witnesses have to say. But when the Capital was 
moved to D.C. from Philadelphia in 1800, the District was 
controlled by the Federal Government. In addition, they had no 
voting, congressional representation, and no votes in the 
Electoral College.
    But the people who lived either voted for Maryland or 
Virginia Congressmen, depending what part of the territory--of 
the District that was previously in Maryland or Virginia.
    Then a year later in 1801 Congress passed legislation 
dividing the District into two counties, Washington County on 
the Maryland side and Alexandria County on the Virginia side, 
and those laws would apply.
    Then in 1802, the citizens petitioned the government for a 
municipal charter. Then it moved down through several things 
that happened and then in--let us see, when was this?
    There was a home rule in 1973 was passed, enacting the 
structure of government with powers--the mayor and the 13-
member council--with some other exceptions.
    But I think maybe the Founding Fathers had this right. They 
were really concerned about the role of conflicts of state laws 
versus the Federal in the D.C. property area here and then 
about the rights of people to vote.
    Now, Mr. Pilon, how did you--you know, what is your 
thoughts on this what the Founding Fathers were thinking? 
Because they did allow residents to vote for U.S. senators and 
U.S. Congressmen, so they did have representation and they did 
have those laws apply in the part of the geographical area, 
whether that was part of Maryland or Virginia.
    Mr. Pilon. If I understand you correctly, you are asking me 
to speculate on what it was that explains why changed the 
voting situation. Is that correct?
    Mr. Gibbs. Well, I think--I am just--I am speculating. We 
are all speculating because nobody was around back then.
    Mr. Pilon. Yes. It is mere speculation. I have no idea 
what----
    Mr. Gibbs. Yes. But, you know, we know that the Founding 
Fathers were concerned about the conflict with state laws. I 
mean, that is a fact. That is all in the Federalist Papers and 
everything, and but there hasn't been a lot of discussion about 
what concern there was for the residents in this--in this 
territory. I don't want to say territory. That is not the right 
legal word. But in the District.
    Mr. Pilon. Yes.
    Mr. Gibbs. So they--there was a revision. They were able to 
vote, and those laws, either the Maryland state laws or the 
Virginia state laws, were regarded for, you know, Federal 
things that would apply to them.
    They had a say and, apparently, when the District moved 
over time incrementally it changed the laws and the rules. They 
actually kind of, you know, shot themselves in the foot. They 
lowered their abilities, what they had before. So I don't know 
if the congressional Research Service has done--look at what 
happened back in the early 1800's.
    Because maybe they had it right and we are just forgetting 
about that, and if we were really concerned about the 700,000 
people having the right to vote maybe we ought to go back to 
that provision and let them vote for the U.S. senators in 
either Maryland or Virginia.
    Mr. Pilon. Again, I----
    Mr. Raskin. Would the gentleman yield?
    Mr. Gibbs. Who is asking? Yes, go ahead.
    Mr. Raskin. Mr. Gibbs, thanks for that excellent question.
    As I understand it, both Maryland and Virginia ceded land 
to Congress in 1791 and people continued to vote in Maryland or 
Virginia, depending on which portion, as you stated, they lived 
in.
    When the Organic Act was passed by Congress in 1801 that 
included organization for a local district, and as far as it 
can be told, everybody assumed that meant that voting rights 
ceased in Maryland and Virginia and Madison predicted that 
Congress would provide for the representation of people in the 
District.
    And, of course, at that point, it was a very small and 
seasonal population. So it kind of came and went. But there was 
an assumption that, certainly, Madison made that there would be 
no large population that would ever be disenfranchised.
    I yield back. Thank you for taking my----
    Mr. Gibbs. I think to follow through on my thought here on 
our territories, you know, obviously, Puerto Rico being the big 
one but American Samoa, Guam, you know, they don't have 
senatorial representation. They have similar to what we have 
here.
    So, you know, should they be held different than D.C.? Can 
you----
    Mr. Pilon. Well, again, if I understand you correctly, 
voting for Members of Congress is a function of living in a 
state, and the District was never a state, and that is, I 
think, the essence of the matter.
    Mr. Gibbs. Okay. So and the Founding Fathers were----
    Mr. Pilon. After all, you can't have two senators from a 
district. You don't----
    Mr. Gibbs. That is a good point. I am glad you made that. 
But I think also, you know, the overriding issue here for our 
Founding Fathers was to make sure that the Federal capital 
wasn't part of a state because of those conflicts. So that that 
is----
    Mr. Pilon. I think you are right about that.
    Mr. Gibbs [continuing]. and it would take a constitutional 
amendment to make any change. There is no doubt about that, at 
least in my mind, and you concur, right?
    Mr. Pilon. Yes.
    Mr. Gibbs. I yield back my time.
    Ms. Norton. Thank you very much, Mr. Gibbs. I appreciate 
that you raised the notion of the territories. It should be 
noted for the record that the territories don't pay Federal 
income taxes and the District is No. 1 per capita in Federal 
income taxes.
    Mrs. Maloney?
    Mrs. Maloney. I thank the chairlady for yielding and for 
your extraordinary issue--leadership, I would say, on this 
issue for years, and I thank all the panelists.
    The admissions clause of the Constitution gives Congress 
the authority to admit states. Every state has been admitted 
into the Union by simple legislation, correct, Madam Mayor?
    Mayor Bowser. That is correct.
    Mrs. Maloney. Except for the 13.
    Mayor Bowser. The first 13. Yes.
    Mrs. Maloney. So the admissions clause prohibits a state 
from being carved out of another state without that state's 
consent. D.C. consists of land ceded by Maryland to the Federal 
Government, as the Congressman pointed out.
    Some argue that Maryland's consent is necessary for the 
admission of the state of Washington, DC. because the new state 
would consist of Maryland land.
    The Maryland statute that ceded the land to the Federal 
Government appears to be an unconditional or absolute decision. 
It says the land shall be, and I am quoting, ``forever ceded 
and relinquished to the Congress and government of the United 
States in full and absolute right and exclusive jurisdiction,'' 
end quote.
    So I would like to ask the mayor and Mr. Thomas and anyone 
else who would like to comment, have there ever been, to your 
knowledge, any challenges to the authority of Congress to admit 
states by simple legislation?
    Mayor Bowser. Not that I am aware of.
    Mr. Thomas. Not that I am aware of.
    Mrs. Maloney. Anybody?
    Mr. Thomas. Not that I am aware of.
    Mrs. Maloney. So we don't know that it has always been--so 
I would like to thank you for that answer because that 
certainly builds the case.
    But I would like to ask Mr. Thompson for Maryland's consent 
to be required the land is ceded to the Federal still would 
have to be Maryland land. Does the text or legislative history 
of the Maryland statute that ceded the land or Maryland 
property law generally indicate the land is Maryland land, 
whether through an implied interest or otherwise?
    Mr. Thomas. So the law that ratified that secession of the 
Maryland land does contain language indicating that full title 
forever will pass to the United States.
    The concern that has sometimes been expressed is it says 
for purposes of Article 1--pursuant to the purposes of Article 
1 Section 8, which could imply for purposes of the District of 
Columbia, and the question would be is whether that statement 
of secession would in some way have an implied reversion, 
meaning that if the land was no longer being used for purpose 
of the District of Columbia then it would be reverted to 
Maryland, and that is an argument that has been made.
    There is a lot of literature on--secondary literature, law 
reviews, et cetera--making arguments about this. The real 
answer is we don't really have relevant case law. We have 
analogous case law from Maryland property law which suggests 
that implied reversion--interests in property are disfavored by 
courts.
    But the context in which this arises, which is secession to 
the Federal Government for purposes of a district, is nothing 
that has been addressed by a court previously.
    Mrs. Maloney. Okay. Does anyone else want to comment on 
this?
    Mayor Bowser. I will just add, Congresswoman, that we 
concur with what the congressional Research Service has 
submitted to you and that our petition proposes to make the new 
state entirely out of the Federal district and no part of 
Maryland.
    It is our view that Maryland ceded its land to the Federal 
Government and the Congress can make decisions on what to do 
with that land including making the Federal enclave smaller.
    Mrs. Maloney. Well, thank you so much. My time has almost 
expired and I yield back. Thank you.
    Ms. Norton. I thank the gentlelady.
    A reversionary clause, Mr. Thomas already said there was no 
reversionary clause that would say if you didn't use it, then 
we get our land back. And for the record, the land is still 
being used for the Nation's capital and for residents.
    So it was always to be used for the Nation's capital. It is 
not as if what would remain is--will not be the capital.
    Mr. Higgins?
    Mr. Higgins. Thank you, Madam Chairwoman.
    I thank our panelists for appearing before us today.
    I think I am going to speak to my veteran brothers and 
sisters since that was addressed earlier that the question 
before us today should be strictly constitutional. Our oath as 
veterans was to our Constitution, not to a party or race or 
creed or color or ideology, certainly not to party affiliation 
or status upon the economic strata, culture, heritage.
    The debate before us today is strictly constitutional, as 
was our oath, and this is the tone that this body should 
embrace as we consider this question of the statehood of the 
District of Columbia.
    And may I say that I believe that if this effort was 
sincere by my colleagues amongst this august body, then there 
would be an introduction to repeal the Twenty-Third Amendment 
and to introduce a Twenty-Eighth Amendment. Because my 
understanding and interpretation of many scholars, it is in 
order for the District of Columbia, which is our Nation's 
capital, set aside from lands ceded by two states, this would 
require a constitutional amendment.
    Mr. Thomas, you are obviously a very learned fellow. Thank 
you for your service to this Congress, for the years that you 
have studied our Constitution and its complexities.
    I would like to clarify, is it your actual opinion that a 
new sovereign state of our representative republic can be 
formed by simple legislative action under Article I, a new 
sovereign state formed originally of land ceded by Virginia and 
Maryland, a new sovereign state formed without the consent of 
the citizens of Maryland and Virginia, a new sovereign state 
established by a single legislative bill, absent the repeal of 
the Twenty-Third Amendment and absent of the presence of the 
introduction of a Twenty-Eighth Amendment? That is your 
opinion, sir, as a learned scholar?
    Mr. Thomas. Congressman, I'd like to add, sir, I believe 
there are two separate questions in there. The first does go to 
the question of whether or not Maryland contains a reversionary 
interest in the property. And as I suggested, there are--there 
is analogous case law, but certainly not case law that goes to 
this particular situation. So I think it would be a novel 
constitutional issue whether or not the Maryland reversion 
existed, in which case it would be then--then you'd move to the 
next question of whether or not Maryland was going to provide 
permission to--or is going to retrocede whatever or would cede 
to the Federal Government whatever reversionary interest they 
had.
    As to the Twenty-Third Amendment, I believe that the 
Twenty-Third Amendment will still be a constitutional 
amendment. Its application, I think, is--it's a complex 
question will be left, especially because it would appear that 
there will be remaining people in the Federal enclave, and so 
that would certainly be----
    Mr. Higgins. So in the interest of time, what you have 
clarified with your response is that this is quite a complex 
issue, is it not?
    Mr. Thomas. I absolutely concur.
    Mr. Higgins. Certainly. In Article IV, Section 3, ``New 
states may be admitted by the Congress into this Union, but no 
new state shall be formed or erected within the jurisdiction of 
any other state, nor any state formed by the junction of two or 
more states.''
    Was the District of Columbia formed by lands ceded at a 
junction of two or more states?
    Mr. Thomas. The District----
    Mr. Higgins. The original 10-square-mile tract of land?
    Mr. Thomas. The District of Columbia was created under the 
district clause. So the admission clause would be for states.
    Mr. Higgins. And specifically, the Founders referred to not 
allowing a state to be formed--this is very complex. We should 
have this conversation. We should do so within the parameters 
of constitutional authority.
    One final question in the remainder of my time. Did you 
author just in 2009 the constitutionality of awarding the 
delegate for the District of Columbia vote in the House of 
Representatives for the committee of the whole? 2009, do you 
recall this?
    Mr. Thomas. Yes.
    Mr. Higgins. Why would your name be redacted from this 
document? Do you know, sir?
    Mr. Thomas. The public release of congressional Research 
Service reports, I believe, are now being done with names 
redacted. The--I believe----
    Mr. Higgins. Thank you, sir.
    Mr. Thomas. Oh, sorry.
    Mr. Higgins. Reclaiming my time, Madam Chairman, I would 
like to offer this for the record. And if I may, in the 
conclusion paragraph, you wrote, sir, ``In sum, it is difficult 
to identify either constitutional text or existing case law, 
which would directly support the allocation by Congress of the 
power to vote in the full House for the District of Columbia 
delegate.''
    You go on to conclude, ``A congressional power over the 
District of Columbia does not represent a sufficient power to 
grant congressional representation.'' These are your own words.
    Do you think congressional representation is less 
significant or more significant than the actual formation of a 
51st state? I will let you answer, and I yield.
    Mr. Thomas. I believe that the question as to the voting 
rights of the committee membership is a distinct question from 
the admission of states.
    Ms. Norton. Of course, the delegate votes in committee, and 
the matter of the delegate vote in the committee of the whole 
was submitted to the congressional Research Service, and it was 
they who said that that was constitutional.
    I want to call now Mr. Connolly.
    Mr. Connolly. I thank the chair, and I thank her so much 
for holding this hearing.
    And welcome to our panel.
     Mayor Bowser. Thank you.
    Mr. Connolly. You know, as a student of history, one of my 
great heroes in American history is Abraham Lincoln because he 
grew. He grew as a person in understanding the complexities 
about race and the interrelationships among the Union members.
    I fear that the party of Lincoln that led us in the 
Thirteenth and Fourteenth and Fifteenth Amendments that won the 
Civil War is increasingly sounding like the party of Stonewall 
Jackson and Jefferson Davis. When they say it is not about race 
or partisanship, you can be sure it is about race and 
partisanship.
    And that is tragic not only for you, but for the country. 
And if you don't believe that, look at the track record when 
my--when Republicans take over state legislatures and 
Governor's mansions. When it comes to voter suppression, when 
it comes to voter ID, when it comes to early voting to enable 
people to vote, consistently they have suppressed.
    Why? Because they would lose elections. This isn't about 
your right. They are not going to respect that. They are going 
to do everything they can to deny it and have.
    I have heard the sanctimonious assertion, ``Oh, I agree. 
People should be able to vote.'' Really? So when the delegate 
from D.C. was given the right to vote in the committee of the 
whole by the Democrats when they were in the majority, and when 
we lost that majority, what happened? Every time the 
Republicans took away her vote in the committee of the whole.
    So much for that commitment to your right to vote even 
here, even in just the committee of the whole.
    So let us call this what it is. It is not about the 
Constitution. Clearly, there are implied powers in Article I. 
It is absurd to insist there are only enumerated powers. There 
are implied powers in every article of the Constitution.
    Start with Article II. There are no ends to the implied 
powers of the executive. What about the implied powers of the 
legislature? We have got them, too. One of them is to determine 
statehood.
    Mr. Thomas, do you know your history a little bit?
    Mr. Thomas. I hope so. I hope so.
    [Laughter.]
    Mr. Connolly. Okay. So we have heard you can't carve out a 
state. Now I come from Virginia, and we had this unpleasantness 
in 1862. Do you remember what happened to the western part of 
my state?
    Mr. Thomas. West Virginia was formed out of the state of 
Virginia.
    Mr. Connolly. Out of the state of Virginia. Now was that 
done by a constitutional amendment, Mr. Thomas?
    Mr. Thomas. That was not done by constitutional amendment.
    Mr. Connolly. And does West Virginia continue to be a state 
in the Union today?
    Mr. Thomas. Yes.
    Mr. Connolly. And do you know how it happened? I will tell 
you--because it had Union troops all over it. We declared it a 
state, and it was ratified by the Congress. No one argued you 
needed a constitutional amendment.
    Now let me ask you another question. So what year was the 
Constitution adopted?
    Mr. Thomas. 19----
    Mr. Connolly. 1787.
    Mr. Thomas. 1787, sorry.
    Mr. Connolly. That is your answer, and you are sticking to 
it, right?
    [Laughter.]
    Mr. Connolly. 1787. Did the District of Columbia exist in 
1787?
    Mr. Thomas. No.
    Mr. Connolly. No. So the writers of the Constitution are 
thinking we need a capital, and probably it is going to be a 
small administrative enclave. Is that correct?
    Mr. Thomas. Correct.
    Mr. Connolly. And they couldn't even agree where it would 
be. Is that true?
    Mr. Thomas. There was a lot of debate at the time.
    Mr. Connolly. More than debate. They couldn't agree on it 
until after the Republic, in fact, was up and functioning. 
Isn't that true?
    Mr. Thomas. Correct.
    Mr. Connolly. And wasn't there a famous dinner at Thomas 
Jefferson's house where he brought together Madison and 
Alexander Hamilton and hammered out a compromise about where it 
would be located? Is that not true?
    Mayor Bowser. That's true.
    Mr. Thomas. That, I'd have to defer to your----
    Mayor Bowser. That's true.
    Mr. Thomas [continuing]. your history.
    Mr. Connolly. Yes, trust me on this one, Mr. Thomas. Work 
with me.
    [Laughter.]
    Mr. Connolly. Okay. So there was. And the deal was 
Alexander Hamilton got his deal on the debt. The Federal 
Government would take on the debt of the states from the 
Revolutionary War, and Madison, Washington, and Jefferson would 
get their capital, which they wanted in the Potomac.
    So the argument that, well, the Constitution never 
envisioned people voting in D.C., yes, they never envisioned a 
modern metropolis of 700,000 people. And had they, I know 
Madison would be the first to line up and give you the vote. 
Not as a privilege, not because you fought for the country, but 
because as Americans, it is your right.
    Ms. Norton. The gentleman's time has expired, and we 
appreciate that deep and thoughtful history lesson.
    Mr. Massie?
    Mr. Pilon. Madam Chairman, may I respond to this remark 
that just came from Mr. Connolly?
    Mr. Connolly. Madam Chairman, if Mr.--if the gentleman from 
Cato wants to respond, and certainly he is free, I want to----
    Ms. Norton. No, who is asking to respond?
    Mr. Connolly. Two things. He is not--he is not designated 
to speak ex cathedra about the Constitution of the United 
States, and I want the right to respond.
    Ms. Norton. The gentleman's time has expired.
    Mr. Connolly. It may have. But Mr. Pilon has no right to 
time either, and I would appeal----
    Ms. Norton. Well, I am not offering----
    Mr. Connolly [continuing]. to the chair to be able to 
respond to his comment.
    Ms. Norton. I am sorry, Mr. Pilon. The gentleman's time has 
expired. If someone over on this side can offer you his time--
--
    Mr. Massie. Madam Chair?
    Ms. Norton. I call now on Mr. Massie.
    Mr. Massie. Madam Chairman, I would give at least 30 
seconds to Dr. Pilon to respond to that last comment.
    Mr. Pilon. Yes. So, first of all, the Constitution was not 
adopted in 1787. It was adopted, that is to say ratified, in 
1788, when nine states did so.
    More importantly, you allege that this is all about race 
and partisanship. I grant there are partisan elements to this. 
This is not about race. I urge you, I request that you withdraw 
that charge.
    Mr. Connolly. Never.
    [Laughter.]
    Mr. Connolly. It is about race----
    Mr. Massie. Reclaiming--reclaiming my time, reclaiming my 
time. Would the gentleman----
    [Applause.]
    Mr. Massie. Madam--can I have that time? May I have that 
time restored?
    Ms. Norton. The time is yours. The remaining time is yours.
    Mr. Connolly. I took two seconds to say ``never.'' You can 
have that time.
    [Gavel sounding.]
    Mr. Massie. Mr. Thomas, in your testimony, you say it has 
been argued that the Framers intended the District and the 
Federal enclaves clause to remove the new Federal capital 
completely from the control of any state in order to avoid 
repeating the humiliation that the Continental Congress 
suffered in June of 1783. Can you tell us about that 
humiliation?
    Mr. Thomas. The Philadelphia revolt of 1783 occurred when I 
believe there were 80 Revolutionary War soldiers who had not 
been paid and were attempting to make a petition to the members 
who were meeting in Philadelphia.
    Mr. Massie. What happened to them?
    Mr. Thomas. There was a--there was essentially feeling that 
there was threatening behavior and that the state would not 
step in to prevent the--protect the Congressmen. So the 
Congressmen had to leave and reconvene in, I believe, 
Princeton, New Jersey.
    Mr. Massie. So was this in the Framers' mind when they 
framed the Constitution?
    Mr. Thomas. Yes.
    Mr. Massie. Okay. So I want to--if it is possible to bring 
up the map of the proposed Federal enclave. Is the minority 
able to do this? The majority? Can we--Okay.
    So what strikes me is how small this enclave is proposed to 
be. Now it is changing. So this is the map has changed a little 
bit since then, and I will note that where it is relevant. But 
Mr. Thomas, where do you park?
    Mr. Thomas. I take the Metro.
    Mr. Massie. You take the Metro. Okay.
    [Laughter.]
    Mr. Massie. Good answer. That is nice. Some of my staff 
actually park out where the new state would be. So what is 
proposed, basically--and a lot of Capitol Hill staff would be 
parking outside of the Federal enclave. Doesn't it seem like 
there would be some influence if the congressional staff had to 
appeal to the new state to park?
    Mr. Thomas. I agree that if there is a parking issue that 
that would--certainly could impact some staff members.
    Mr. Massie. So another thing that strikes me about this 
map, if you will look at it, if you go from the Capitol down 
Pennsylvania Avenue toward the White House, there are a few 
block-outs there. Mayor Bowser, can you tell me what those 
block-outs are?
    Mayor Bowser. I'm sorry. I didn't follow what you----
    Mr. Massie. If you go from the Capitol down Pennsylvania 
Ave. toward the White House, the enclave, that would be the 
boundary between the new state and the Federal enclave that is 
left. But I see there are a couple cutouts there. Can you tell 
me what those cutouts are?
    Mayor Bowser. One of them is the state capital for the 51st 
state.
    Mr. Massie. What is the other one?
    Mayor Bowser. Can you give me the cross street?
    Mr. Massie. They are not really labeled. Twelfth Street?
    Mayor Bowser. Oh, it's a hotel.
    Mr. Massie. It is a hotel. Who owns the hotel?
    Mayor Bowser. The President of the United States.
    Mr. Massie. Isn't it a Federal building?
    Mayor Bowser. It----
    Mr. Raskin. It is the Washington emolument.
    Mayor Bowser. Sorry?
    Mr. Massie. That was cute. He is just--he is interrupting.
    Mr. Thomas, can you tell me what that property is?
    Mayor Bowser. May I just respond to you, Congressman?
    Mr. Massie. Yes. Yes.
    Mayor Bowser. It is a lease, a long-term lease with the 
GSA.
    Mr. Massie. To who?
    Mayor Bowser. To the Trump organization.
    Mr. Massie. To the Trump organization. So was it your 
decision when this line was drawn to put the Trump Hotel in the 
new state, to take that Federal property that is leased to the 
Trump organization. Did you all decide you wanted that in the 
new state? Was this a decision you were involved in, or was 
your--did you discuss it with your delegate here in Congress?
    Mayor Bowser. No, it was our decision with the voters of 
the District of Columbia and with the Council of the District 
of Columbia. We worked with our planning agency to identify the 
Federal uses, Federal buildings, and to identify all of the 
places where voters live or D.C. residents are. And we were 
very careful to include the White House, the Congress, all of 
our monuments, all of our free museums.
    Mr. Massie. In the enclave?
    Mayor Bowser. In the enclave. So all----
    Mr. Massie. But you wanted to make sure the Trump Hotel was 
in your new state?
    Mayor Bowser. Well, it's being treated like all of the 
other hotels, sir.
    Mr. Massie. Are all the other hotels Federal property?
    Mayor Bowser. There is Federal--there will continue to be 
Federal property in the 51st state, just like there's Federal 
property in Virginia, there's Federal property in Maryland. 
There are Federal properties throughout the 50 states.
    Mr. Massie. I just find it very interesting and remarkable 
that this would be a straight line and that is a Federal 
property. But somebody decided they wanted the Trump Hotel in 
the new state.
    And I yield back the balance of my time.
    Mayor Bowser. Well, the Trump Hotel, sir, is not a 
Government--it does not have a Government use. It has a 
completely commercial use.
    Mr. Massie. Who owns it?
    Mayor Bowser. The Federal Government owns it.
    Mr. Massie. Yes.
    Mayor Bowser. Just like the Federal Government owns 
properties throughout the states.
    Mr. Raskin. Will the gentleman yield?
    Mr. Massie. Let me make sure my time doesn't run out 
because another gentleman took some of it.
    Let me just say very quickly this is the ridiculousness you 
get into when you try to draw a Federal city into a teacup is 
that the parking, the police that would be in this Federal city 
can't even park there. The workers can't even park there, and 
that is the ridiculousness that you get into.
    Then you also get into these things like, well, it is 
Federal property, but because Trump owns the hotel, we would 
like to have that in the tax base in our state.
    Mayor Bowser. Madam Chair----
    Mr. Massie. I yield back.
    Mayor Bowser. Well, all the hotels are included, sir. None 
of the hotels are excluded. I don't know why we would treat the 
President's hotel differently.
    Mr. Massie. Federal property. Federal property.
    Ms. Norton. I note that the gentleman received an extra 
minute. I now recognize Mr. Raskin.
    Mr. Raskin. Thank you, Madam Chair.
    The United States is only democratic nation on Earth which 
disenfranchises the residents of the capital city in its 
national legislature. We spend hundreds of millions of dollars 
promoting democracy around the world. We have never been able 
to sell to any other country, and I don't even know if we 
tried, the idea of disenfranchising hundreds of thousands of 
people who happen to live near the national parliament.
    Union and liberty, this was the cry of Abraham Lincoln and 
the Republicans in the 19th century. It is the cry of the 
people of Washington, DC, today who want to join the Union on 
the basis of equal citizenship and full voting rights. And they 
want equal liberty.
    That is the question. Whether the Government is going to 
stand with them or stand in their way. The only way that we 
have admitted new states to the Union is through Congress. We 
started with 13 states. We added 37 new states all under 
Article IV, Section 3, which says new states may be admitted by 
the Congress into the Union. There has never been a state 
admitted by constitutional amendment.
    The Congress has the power to admit new states. The people, 
through the Ninth Amendment and the Tenth Amendment, have the 
power to create new states and to petition for admission, which 
is exactly what has happened here.
    Very quickly, Ms. Mayor, what is the name of the new state?
    Mayor Bowser. Washington, DC, Douglass Commonwealth.
    Mr. Raskin. Douglass Commonwealth. Okay. Now I looked over 
the last couple of days at some of the arguments that have been 
made against other statehood admissions in the past because it 
is, indeed, a political question. There is no doubt that people 
tried to conscript constitutional arguments in the service of 
opposition to other people's equality. But fundamentally, it is 
a political question because Congress has to vote on it.
    So here are some of the things that I found. Well, it was 
said on the floor of Congress Hawaii and Alaska could not be 
admitted because they were not contiguous to America, and there 
were very serious arguments made about how they couldn't be 
admitted for that reason.
    Texas, my good friend from Texas will be interested to 
know, was the subject of a long campaign saying it could not be 
admitted because it was a foreign government. It was its own 
republic and, therefore, could not be admitted because it 
wasn't a territory.
    All of these arguments about how the District--the land 
that is the District of Columbia today can't be admitted 
because it used to be part of Maryland were made about Maine 
because it used to be part of Massachusetts; Vermont because it 
used to be part of New York. West Virginia and Virginia. 
Kentucky and Virginia. Tennessee and Virginia.
    All across the country these exact same arguments were 
made. They said that Idaho and Utah could not be admitted to 
the Union because of the practice of polygamy in those states 
and because of the political control of the Mormon Church. And 
actually, it was the Republican Party making those arguments 
that Utah and Idaho were not qualified to be admitted to the 
Union.
    So now, today, the totally, I think, fraudulent and 
deceptive argument is made that you can't turn the Federal seat 
of government into a state, and therefore, that disqualifies 
what the good people in front of us are trying to do. But that 
is not what they are trying to do. They are not trying to turn 
the seat of government of the United States into a state. They 
are trying to redraw the boundaries of the Federal District, 
and there is very clear, historical precedent for that that is 
controlling here.
    It is exactly what Congress did in 1847 when it redrew the 
map of the Federal District and retroceded to Virginia 
Alexandria, Arlington, and Fairfax County. So if Congress 
doesn't have the power to redraw the Federal District, then 
those lands were illegally given back to Virginia.
    So that seems completely beside the point. It is an 
irrelevant distraction. But the worst distraction today has 
been the argument, I really was quite shocked to hear about 
Jack Evans, who is a city councilman in the District of 
Columbia.
    The claim seems to be that if one person in a jurisdiction 
gets in trouble, you disenfranchise the entire community. That 
cuts against everything we believe in about democracy. We don't 
believe in American democracy in collective guilt. We don't 
believe in mass punishment. And we don't believe in depriving 
the people of democratic political sovereignty because of the 
sins, real or imaginary, of a single individual.
    And I would go through all of the politicians in all of our 
states, of everybody who is sitting on the panel today, to talk 
about the people who have been prosecuted, convicted, removed 
from office, and so on. But it would be beneath the dignity of 
this chamber.
    But it is beneath the dignity of this chamber to say that 
we should be disenfranchising taxpaying, draftable, serving 
citizens of the United States because of the sins of one 
person.
    With that, I happily yield back to you, Madam Chair.
    [Applause.]
    Ms. Norton. The gentleman's time has expired. I note that 
the gentleman is s distinguished constitutional professor and 
scholar and appreciate how he filled that matter in, in our 
record.
    Mr. Grothman?
    Mr. Grothman. Thank you.
    I am going to go a little bit maybe off topic here, but 
that is because I think some of the witnesses were going off 
topic before. Did I hear you right, Mr. DeWitt? You plan on 
introducing sports gaming in the District of Columbia?
    Mr. DeWitt. Congressman, sports gaming is law in the 
District of Columbia and has been for several months.
    Mr. Grothman. Okay. I guess it was brought up because they 
felt it was a sign of fiscal responsibility or something. Right 
now, I know this. The District of Columbia, their school 
district already spends the second-highest amount per pupil in 
the country. So it is hard to imagine one saying the District 
of Columbia needs more tax revenue.
    I have always kind of been an opponent of more gaming. I 
know gaming takes away from people--it takes advantage of a 
weakness. I know there are some, some states intermittently who 
dive all in because they are so, so big government-like or they 
want to give their employees a raise or what not.
    But I was just very disappointed that the District of 
Columbia, which should be almost the easiest district, the 
easiest city in the country to manage because you have so many 
Government jobs here. It is not like you are a city like I was 
born in, where you can have, you know, manufacturing jobs 
disappear and real challenges, real challenges happen.
    I will just say that another Congressman apparently felt 
this was a sign you had your act together. I would like to say 
that I thought it was very sad that the Nation's capital, which 
is already spending so much money, just can't imagine they need 
more money, would decide to go down the route of legalized 
gaming, which almost by definition takes advantage of the 
financially illiterate, to further grow your government.
    I don't think that is something I would brag about, and I 
hope you spend some time or the Mayor spends some time looking 
at disproportionately who loses money when a government decides 
to grab more money on gaming.
    Now----
    Mr. Mendelson. Congressman, can I speak to that?
    Mr. Grothman. Sure.
    Mr. Mendelson. As chairman of the legislature which adopted 
the legislation to permit this, I share many of your views with 
regard to concern about whether gambling disproportionately 
hurts poor people. But what we are seeing--first of all, we 
have had a lottery in the District, a state-run lottery for 
decades. And what we have seen is that with the Supreme Court 
decision a year ago, that the states are picking up this new 
application, which allows for the sports betting.
    We expect that this will happen in Maryland. It will happen 
in Virginia. We've seen it already happen in a number of other 
states since the Supreme Court decision.
    We were not motivated by, oh, we want to do this because we 
need more money. We were motivated by this because we believe 
that that is--there is a demand, as we're seeing in other 
states, there is a demand for expanding the lottery options. 
That is why we did that, and we didn't bring it up to say, oh, 
look, we should be a state because, look, we can do this. That 
actually was brought up for another reason, and I think it was 
questions by a different Congressman.
    Mr. Grothman. Right. A Congressman brought it up apparently 
as something that was good that was done. We have lottery in 
Wisconsin as well. I think, subjectively, if you look at the 
people who sit there in the convenience store and buy ticket 
after ticket after ticket, it doesn't look like the people who 
can afford to buy ticket after ticket after ticket.
    But I know a lot of times politicians view their goal as 
always getting in more money, and I was disappointed that the 
District of Columbia decided to go down that route.
    Now, obviously, there are problems in the District of 
Columbia. You are spending the second most in the country per 
pupil in your schools. I know there are all sorts of ways to 
rank schools, but at least my little online search shows you 
being third from the bottom in test scores, I think behind 
Louisiana and New Mexico.
    There are all sorts of crimes out there, but murder is the 
one that is most publicized. And at least from what I can see 
on my quick search, I think if you were a state, you would have 
the highest murder rate in the country over Louisiana somewhat 
substantially.
    I think I will ask one of you on the education thing, how 
do you wind up--or could you comment on having the second-
highest cost per pupil, but like the third-lowest test scores? 
To what do you attribute that?
    Mayor Bowser. If I may, Congressman, let me start with your 
question about public safety in Washington, DC, because I want 
to address that head-on. Certainly, what we have seen over the 
course of many years, total crimes going down across our city, 
but certainly, we are concerned about any crime and especially 
homicide.
    I do want to point out part of the reason that we are here 
to demand full statehood and sovereignty for the people of our 
District is because I control a part of the criminal justice 
system. And you, on the Federal level, control the rest.
    I control our police department and the human services 
agencies that enforce our laws. But it's the Federal Government 
who controls the prosecutors, the courts, the supervising 
agencies for adult offenders and for youth offenders.
    So the way that you and all of my residents can ask me 
about how we're driving down crime is to make sure that we have 
complete control over the agencies that affect crime in 
Washington, DC, and statehood is the way that we get there.
    As for our schools, we are proud of the progress that we 
have made in our schools and the intense investment that we 
have made over the last 10 years. What we have seen--I just 
announced test scores--we're one of the few states in the 
country that hold ourselves to a very high level of testing 
with a PARCC exam that demonstrates if a student is not only 
doing well in school, but if they will be ready for college and 
career when they graduate.
    For four straight years, we have seen increases in those 
data across the board for children that are at-risk, from 
children who have disabilities, and with our African-American 
children. Those investments turn around urban school districts, 
and we're very proud of that.
    Mr. Grothman. My time is up.
    Ms. Norton. I call on Ms. Plaskett next.
    Ms. Plaskett. Thank you all for being here, for your 
patience. And I want to thank the audience for what appears to 
be their full support of the District of Columbia.
    I am one of the cosponsors of the D.C. statehood bill, and 
I find it very interesting, this discussion about 
constitutionality. I consider myself a strict constructionist. 
I am one of probably the few on my side of the aisle that would 
consider themselves a strict constructionist.
    And I believe that the strict construction of the 
Constitution would allow a path for Congress to be able to make 
this determination. But I know there has been a lot of 
discussion about the fiscal responsibility of the District of 
Columbia. I feel that quite a number of Members are hung up on 
that. I won't get into the fact that people were more concerned 
about parking than they were about the rights of citizens to be 
able to make their own determination. That is flabbergasting to 
me.
    But as a result, in 1995, Congress passed legislation 
establishing a financial board in the 1990's. This board did 
its work and didn't solve all of D.C.'s financial problems. And 
in 1997, Congress passed the Revitalization Act, which 
transferred the cost of several government functions from D.C. 
to the Federal Government, established a Federal tax incentive 
to encourage businesses.
    In 2001, the Financial Control Board suspended its 
activities and has remained dormant, and the tax incentive 
expired in 2011. The independent Chief Financial Officers and 
the Revitalization Act remain in place.
    Mayor Bowser and Mr. DeWitt, what assurances do we have 
that the state of Washington, DC, could afford to be a state 
and would not require special Federal support?
    Mayor Bowser. Thank you for that question, Congresswoman. 
And thank you for pointing out some of the constitutional 
questions that have been raised.
    I do want to answer your question directly. You heard the 
Chief Financial Officer say that we operate a $15.5 billion 
government, that we are less reliant on Federal--Federal 
investments than many other states, and that we have balanced 
our budget 24 times in 24 years.
    You've also heard our testimony that our new state 
constitution codifies all of those best practices that have 
allowed us to transform the economy of the District of 
Columbia. It includes an independent Chief Financial Officer, 
and it includes limits on our capital borrowing, and it 
includes a requirement to have a balanced budget.
    We also know that our economy has continued to diversify. 
It could have been said 20, 25 years ago that we were more 
reliant on the Federal Government and Federal workers, for 
example. What we have seen over that period of time is more 
private sector growth in our jurisdiction, especially in tech 
and health and education.
    We have also had a tremendous increase in the number of 
people who are living in the District of Columbia, and we are 
expected--now we're at 702,000. We think that we will be at 1 
million residents by 2045.
    So with that growth of private sector activity, with 
residents, and with our already-strong practices, we know that 
we can sustain our new state.
    Ms. Plaskett. Thank you.
    Mr. DeWitt, Moody's Investors Service rates D.C.'s general 
obligation bonds AAA, which is a higher rating than 35 states. 
D.C.'s high ratings may, in part, reflect an implicit Federal 
guarantee of repayment.
    How would the rating agencies assess the credit-worthiness 
of D.C., should it become a state?
    Mr. DeWitt. They actually don't take in the Federal 
contributions in that AAA rating. It reflects that we're by 
ourselves.
    Actually, one of the rating agencies, Fitch, which is a--
we're at AA+, one from AAA. Their comments to us is you would 
need to be a state before we could make you AAA because worried 
about the interference that Congress could have on your 
financial situation. That's a literal discussion we had with 
them at our last rating meeting.
    So that actually is not an issue with the AAA rating. They 
see us as AAA because of our best practices, our fully funded 
pensions, our reserve levels, our best practices on capital. 
That's why we got moved to AAA by Moody's.
    Ms. Plaskett. Thank you.
    And I just want to say in closing thank you for spending 
the amount of money that you do on your children. I am glad to 
see that that is where most of the money goes, toward your 
future, toward your young people, as opposed to other places 
that would maybe expend money other ways. I do see that the 
ratings in the educational level here in the District of 
Columbia sustaining so many other things is moving up. And I am 
grateful for that work that you all have committed yourselves 
to, the Council, the Mayor, all of you, your chancellor.
    As I am a Virgin Islander, someone who will not be a state 
at any point in time, I commend you for this effort to 
continue. And as someone who resides in the place where 
Alexander Hamilton wrote the Constitution----
    Ms. Norton. The gentlelady's time has expired.
    Ms. Plaskett [continuing]. we stand with you.
    Ms. Norton. Mr. Jordan?
    Mr. Jordan. Thank you, Madam Chair.
    If I could go back to the map that Mr. Massie had up and we 
could put that back on the screen, I would appreciate it.
    But while we are doing that, if I could, Mr. Mendelson, you 
are chairman of the council. Is that right?
    Mr. Mendelson. Correct.
    Mr. Jordan. And in your opening statement, I think you 
said, ``Joining me in this room are other councilmembers,'' and 
I believe you listed off the names. You said Councilmembers 
Allen, Bonds, Gray, Grosso, McDuffie, Nadeau--excuse me if I 
pronounced that wrong, I apologize--Silverman, Todd, Robert 
White, Trayon White. Is that right?
    Mr. Mendelson. Correct.
    Mr. Jordan. They are all in attendance today?
    Mr. Mendelson. They were when I came in. I had them sit 
behind me.
    Mr. Jordan. They were when you started, when you made your 
comments.
    Mr. Mendelson. They look like they're all still here.
    Mr. Jordan. So they look like they are all still here. 
Well, we appreciate them being here.
    Are there any members of the council who aren't here?
    Mr. Mendelson. There are a couple who aren't here.
    Mr. Jordan. Do know who aren't--who those individuals----
    Mr. Mendelson. Well, I didn't mention--I didn't see them 
come in--Councilmember Mary Cheh from Ward 3 and Councilmember 
Jack Evans.
    Mr. Jordan. So Mr. Evans is not here?
    Mr. Mendelson. I don't believe so.
    Mr. Jordan. The guy we wanted to be here didn't come.
    Mr. Mendelson. Okay.
    [Laughter.]
    Mr. Jordan. Did--did----
    Mr. Mendelson. Well, I don't know about requests that you 
may have made.
    Mr. Jordan. No, I know. But we had a little discussion 
about that earlier on. I just wondered, do the two members who 
aren't here today, do they support D.C. statehood?
    Mr. Mendelson. Yes. The council----
    Mr. Jordan. They definitely do?
    Mr. Mendelson. The council is unanimous in its view of 
supporting----
    Mr. Jordan. So Mr. Evans' absence has nothing to do with 
the issue that is being discussed. He is in full support of 
what you are all here advocating for.
    Mr. Mendelson. I can't--I can't speak to why he's not here.
    Mr. Jordan. I understand. But you can speak--you can speak 
to the fact that he is not--that he is not opposed, he supports 
D.C. Statehood, right?
    Mr. Mendelson. Correct. We had the Constitution before us a 
couple years ago, and he voted for the--the council was 
unanimous in that.
    Mr. Jordan. Okay. Yes.
    Mr. Mendelson. So one should not read into absence.
    Mr. Jordan. I am not reading into it. You are the one who 
read into the record the members of council who were here. I 
was just pointing out that there are a couple who aren't, and 
one of those is the guy we have been trying to get a 
transcribed interview with and the guy we asked to be a witness 
at hearings this week and the guy we have asked the chair and 
the committee to subpoena.
    That is all I am pointing out because you are the one who 
raised the number of members who was here.
    Mr. Mendelson. Sure.
    Mr. Jordan. If we can look at the map now, I think it is 
interesting, back to where Mr. Massie was, and let us start 
here. Maybe we will just stick with you, Mr. Mendelson, since 
we have got such a great little discussion going here. We will 
start with the Capitol----
    Mr. Mendelson. Okay.
    Mr. Jordan [continuing]. and as you head down Pennsylvania 
Avenue toward the White House, we have the Federal Trade 
Commission. So let us talk about what is in the enclave. We 
have the Federal Trade Commission. We have the National 
Archives. We then have the Department of Justice. Then we have 
the first little carve-out. Do you follow me, each block as we 
go?
    Mr. Mendelson. Yes, that's the Old Post Office building.
    Mr. Jordan. Right. That is the Post Office building. Some 
would say it is the Trump Hotel, but it is the Post Office 
building, owned and operated by the Federal Government or owned 
by the Federal Government, administrated through the GSA.
    The next is the Reagan building, right?
    Mr. Mendelson. Correct.
    Mr. Jordan. Right, Okay. And then the next carve-out I 
think the Mayor said is where your capital is going to be, if, 
in fact, this would all happen. Is that accurate, Mr. 
Mendelson?
    Mr. Mendelson. Correct.
    Mr. Jordan. Okay. Now go back to the Department of Justice 
right before the carve-out. Across the street is the FBI 
building. Is that right?
    Mr. Mendelson. Correct.
    Mr. Jordan. And that is in the state?
    Mr. Mendelson. Correct.
    Mr. Jordan. Which is fine. As the Mayor indicated that, you 
know, there are all kinds of states have Federal buildings and 
bases and different things. So that is not unusual. But it is 
kind of interesting that you didn't keep it in the Federal 
Government. You kept the Department of Justice in. The FBI is 
part of the Department of Justice. It is literally right across 
the state--or right across the line, Pennsylvania Avenue. But 
it is in the state, and the Department of Justice is not.
    Was there a reason why you didn't do another carve-out on 
the other side to keep the FBI with the agency that is a part 
of the Department of Justice.
    Mr. Mendelson. Well, there are a couple of reasons. One is 
that we could do a lot of carveouts, and the more carve-outs we 
do, the more complicated the boundary is. I mean, that's not a 
good thing. And the other is that the Old----
    Mr. Jordan. So let me interrupt you for a second. If you--
--
    Mr. Mendelson. Well, the Old Post Office is a hotel. So 
it's a commercial enterprise.
    Mr. Jordan. So it is literally because you wanted the 
money? You wanted the revenue?
    Mr. Mendelson. That's kind of a crass way to put it, but 
yes.
    Mr. Jordan. Well, you are the one that said it was a 
commercial enterprise. I didn't.
    Mr. Mendelson. I did.
    Mr. Jordan. Okay. But you kept the FBI building in the 
state, even though the Justice Department is in the enclave, 
and the FBI building is literally right across the street?
    Mr. Mendelson. Yes. You know, as we're talking, I'm 
remembering that I believe at the time this was drawn, there 
was a proposal that GSA was looking for bids to actually 
privatize the FBI site.
    Mr. Jordan. Interesting. Okay. I just think it is 
interesting you are going right straight down Pennsylvania 
Avenue. I understand the carve-out if that is where you are 
going to put the capital. I don't understand the carve-out for 
the Trump Hotel.
    But obviously, this is the map, and this is what you are 
proposing, and this is what I assume that will be voted on at 
some point on the floor of the House.
    Dr. Pilon, for my remaining 15 seconds, just for emphasis, 
will the U.S. Senate, in your judgment, will it support this 
legislation if it gets to them?
    Dr. Pilon. Will what?
    Mr. Jordan. Will the U.S. Senate support this legislation 
if it passes the House and goes to the Senate?
    Mr. Pilon. Not remotely.
    Mr. Jordan. Will the President sign it if it gets to him?
    Mr. Pilon. I have no idea what the President will do.
    Mr. Jordan. I doubt if he will.
    [Laughter.]
    Mr. Jordan. I doubt if he will. And last question, if I 
could, Madam Chair. Ultimately, this will end up--if, in fact, 
it would get all the way through, it is still going to end up 
in front of the U.S. Supreme Court?
    Mr. Pilon. Yes.
    Mr. Jordan. Yes. And that is one of the buildings that they 
kept in the enclave, just might add?
    Mr. Pilon. Yes.
    Mr. Jordan. All right. With that, Madam Chair, I yield 
back.
    Ms. Norton. I thank the gentleman for his questions, and 
just for the record, the Hotel Monaco is owned by the--it is 
another hotel owned by the Federal Government. It is in the 
enclave, I believe.
    And I do want to--I am sorry, it is in the state.
    Mr. Jordan. Yes.
    Ms. Norton. I do want to assure, since the ranking member 
raised the question about the councilmember who isn't here, 
that he will get an opportunity to learn more about the Metro 
hearing, which is the source of his concern. And it is a 
legitimate source because the Metro hearing will have to do 
more than with the District of Columbia as the statehood does.
    So we will make sure that he gets the opportunity to raise 
all of those questions at that time.
    Mr. Jordan. Madam Chair, could I ask--do you know who the 
witnesses are going to be for that hearing yet?
    Ms. Norton. They haven't been given to me yet.
    Mr. Jordan. Okay. Thank you, Madam Chair.
    Ms. Norton. Next, Ms. Pressley?
    Ms. Pressley. Today is a truly historic day for Congress, 
for this committee, for the people of Washington, DC, and for 
our democracy. And I want to give credit where credit is due, 
send some shine to my sister in service Eleanor Holmes Norton, 
who has been a stalwart fighter and champion for over two 
decades. And I am so very proud to serve on this committee 
alongside her, to take up the fight for the rights of workers, 
families, and the American people.
    I also want to give up power to the people and just thank 
those who have labored in love, foot soldiers who have 
organized and mobilized and raised your voices time and time 
again. And that is why we are here today.
    Today's hearing is an opportunity for those of us on this 
committee eager to upend some of this Nation's greatest 
injustices--the denial of a vote in Congress, the denial of a 
say in matters of war and peace, the denial of self-governance 
and self-determination, the denial of full participation in a 
representation democracy.
    For too long, we have both accepted and perpetuated a 
fundamentally flawed system. One that allows you to fight in a 
war, but gives you no say in when to end it. A system where you 
are a citizen, but not guaranteed the full rights of that 
citizenship. A system which mandates you pay your fair share in 
taxes, but limits the power for your decide how those tax 
dollars are used.
    For the people of D.C., taxation without representation is 
more than just a catchy hashtag or a bumper sticker slogan or a 
hallmark of our storied past. It is a harsh reality that leaves 
too many people at the margins of this great, albeit unjust, 
society.
    Full representation in D.C. is about more than full 
democracy in D.C. It is about living up to our ideals as a 
Nation. It is about creating a more fair and just democracy for 
all of America.
    We are in a pivotal moment when the stakes of this Nation 
are high. And looking around this room today, we have a 
formidable movement afoot, and we must no longer be willing to 
justify injustice. We must no longer be willing to deny 
American citizens the full rights of citizenship. We have the 
momentum, and now we must use it.
    So I am here on this historic day in solidarity, and I did 
want to ask Mayor Bowser and Chairman Mendelson, I know you 
were alluding to this earlier, but I wanted to give you some 
time to further expound upon how has this form of Government 
affected D.C.'s mandate to carry out the will of its people?
    Mayor Bowser. Thank you, Congresswoman, and thank you for 
being with us today.
    I think you have laid it out perfectly. The first harm to 
the District is that--to residents of Washington, DC, is that 
our Congresswoman doesn't have a vote, and we do not have two 
Senators. But it is also true that our lack of sovereignty 
harms us, too.
    The laws that we pass are subject to review by this 
Congress. And the budget that we pass is subject to review by 
this Congress. Our very existence could be wiped away by the 
whim of the Congress. And so that lack of sovereignty in 
forever self-determination renders us unequal to our fellow 
Americans, and that is what we are here to talk about.
    I might also add, Congresswoman, a number of folks have 
mentioned that the Twenty-Third Amendment prohibits us from 
becoming a state, and it has already been opined in this great 
Capitol in an earlier hearing by constitutional law professor 
Viet Dinh that the Twenty-Third Amendment will not prevent this 
Congress from voting on the D.C. Admission Act.
    Furthermore, the committee staff has already reported to 
you in addition to what H.R. 51 lays out as a way to deal with 
the Twenty-Third Amendment, that the Twenty-Third Amendment, in 
itself, is not self-effectuating, that it takes an act of this 
Congress to effectuate the Twenty-Third Amendment.
    Legislation was passed six months after the Twenty-Third 
Amendment went into effect. And this Congress will have to vote 
on our legislation but can certainly also render another piece 
of legislation that erases the effect of the Twenty-Third 
Amendment in the District.
    Mr. Mendelson. If I may add to that?
    Ms. Pressley. Thank you.
    Mr. Mendelson. Oftentimes, we find that the legislation 
that we passed is subject to controversy over national issues 
here in Congress, and that would go away if we are a state. And 
I'll give you an example, and that is needle exchange.
    Needle exchange is a practice that has been used in many 
cities, many jurisdictions to try to reduce the incidence, the 
spread of diseases like HIV among the addict population. It is 
a program that we've tried to have in the District for many 
years.
    Congress, because we are not a state, prohibited our 
implementing that program. And as a result, we have the highest 
incidence or have had the highest incidence of HIV-AIDS of any 
jurisdiction in the country.
    That's an example where because we are not a state, because 
of Congress' ability to interfere with our programs and our 
laws, that we have seen a direct adverse effect on public 
health in the District.
    Thank you for the question.
    Ms. Pressley. Thank you.
    Ms. Norton. The gentlewoman's time has expired. Mr. Roy?
    Mr. Roy. Thank you, Madam Chairwoman.
    Appreciate all of you for your time here today, sharing 
your views on this important issue and for the way you are 
answering questions here today.
    Question, Madam Mayor. Do you support the electoral 
college?
    Mayor Bowser. It's the law of the land, sir.
    Mr. Roy. Do you think the electoral college is good for the 
Republic?
    Mayor Bowser. It's the law of the land, sir.
    Mr. Roy. Well, but you are seeking statehood with a great 
deal of passion, and I am just curious--it is a genuine 
question. It is not a gotcha question or anything like that. I 
am just curious if you think the electoral college is 
important?
    Mayor Bowser. Congressman, as Mayor of the District of 
Columbia, I swear an oath to protect and defend the 
Constitution of the United States. And as such, I support the 
laws of our land.
    Mr. Roy. Do you think the electoral college would be 
beneficial to a hypothetical or enacted District or, I should 
say, state of Washington, DC.
    Mayor Bowser. The 51st state?
    Mr. Roy. If Washington, DC, as named, became a 51st----
    Mayor Bowser. We would----
    Mr. Roy [continuing]. State, would the electoral college 
benefit that state?
    Mayor Bowser. We would have the electoral college votes 
that our population requires.
    Mr. Roy. Okay. Dr. Pilon, do you have any thoughts on that, 
about the importance of the electoral college and statehood?
    Dr. Pilon. The importance of the electoral college is that 
it recognizes states as states. When the country was formed, 
under the Constitution, the role of the states was crucial, and 
we see that in the very first sentence of the Constitution 
after the Preamble.
    ``All legislative power herein granted shall be vested in a 
Congress, which shall consist of a Senate and a House of 
Representatives.'' That was the enumerated powers document that 
limited the power to the Congress.
    And then when you get the Tenth Amendment, you see that, 
``The powers not delegated to the United States by the 
Constitution, nor prohibited by it to the states, are reserved 
to the states respectively.''
    Mr. Roy. Right.
    Mr. Pilon. That's why it's important, to preserve the role 
of the states.
    Mr. Roy. Yes, thanks, Dr. Pilon. I agree with that.
    And Mayor, the reason I brought that question up, right, is 
there is obviously a lot of debate these days about the 
electoral college and its pros and its cons. I happen to be a 
supporter of the electoral college. I think it is important and 
a recognition of the primacy and importance of states to our 
Republic and to the Union.
    So I find it with some bit of amusement, while I recognize 
a lot of my colleagues in an impassioned desire to deal with 
the enfranchisement issue, the disenfranchisement question with 
respect to voting, I understand that. I would also just ask on 
that point, the population of the District of Columbia was--or 
in 1800, what, about 14,000, 15,000?
    Mayor Bowser. In 1800, I think it was less than that.
    Mr. Roy. Yes, ma'am. Somewhere in that zip code or smaller. 
And then, today, you guys are saying 700-and-some thousand. We 
got a Census coming up, but something like that?
    Mayor Bowser. Yes.
    Mr. Roy. And so it just strikes me as noteworthy that 
people continue to move to the District of Columbia, 
recognizing the state that we find ourselves in. Not the state, 
statehood, but the existence of the District of Columbia as it 
is in our current framework, right? A district. A unique entity 
that was created because the Founders wanted to have a separate 
entity.
    People move there, recognizing that, and they have got a 
choice. They could vote with their feet. They could move into 
Maryland. They could move to Virginia. They could be in another 
location. That is fine.
    Mr. Raskin. Would the gentleman yield?
    Mr. Roy. Yes, give me one minute to finish, and then I 
would be delighted to yield.
    Which the other point that I would like to make is the 
intertwined nature of the city with the Federal Government. And 
I think this would be a question maybe for Mr. DeWitt. I think 
revenue growth this year, and I was reading in an article about 
District of Columbia, is relatively flat for the District of 
Columbia this year. Is that true?
    Mr. DeWitt. No, that's not true. It's growing at more than 
three percent.
    Mr. Roy. Okay. Earlier this year, you predicted revenue 
growth would pick back up to four percent in fiscal 2020, but 
that it was relatively flat. There was an article that had you 
quoted along those lines.
    Mr. DeWitt. It means relatively flat prior to the forecast. 
It's still growing at more than three percent year.
    Mr. Roy. Okay. But one of the points that was raised was 
that there was a hit that came from the 35-day Federal 
Government shutdown. Is that correct?
    Mr. DeWitt. That is correct.
    Mr. Roy. A revenue shortfall of like $47 million, 
potentially?
    Mr. DeWitt. That is correct.
    Mr. Roy. And my point being is there is an inherent unique 
quality to the District of Columbia, the way it was created and 
structured. We saw the questions about the maps, and we can 
debate about garages and so forth. The point my friend from 
Kentucky was trying to make is that when we try to cut this 
down to just basically the Mall and the Capitol and the White 
House and a handful of Federal buildings, it is not taking into 
account the extent to which this city has been built up around 
the Federal Government and is inherently intertwined in terms 
of the population, economy, jobs, and so forth.
    So I think that it is important to recognize that, and I 
opened the question with respect to the electoral college, 
recognizing that if states are central to our existence as a 
republic, we recognize the importance of why Senators matter. 
And it is not just a game of power, it is a game of why those 
Senators matter to represent that state, and I think that is 
important in this discussion.
    [Gavel sounding.]
    Mr. Roy. Thank you, ma'am.
    Mr. Mendelson. If I could just--Madam Chairwoman, if I 
could just----
    Ms. Norton. The gentleman's time has expired, but you may 
respond, Mr. Mendelson.
    Mr. Mendelson. Thank you.
    There is no question but that the District does--is 
affected very much by the Federal Government economically, and 
we did take a hit with the shutdown. But so did Northern 
Virginia and Maryland.
    Mr. Roy. I am aware.
    Mr. Mendelson. Sequestration a few years ago, we saw that 
Maryland and Virginia were hurt, hurt just like the District of 
Columbia was.
    Mr. Roy. Sure.
    Mr. Mendelson. So we're not unique in that regard. There is 
a relationship, no question about it. But it's not--in terms of 
the economy, it's not unique to the District just because the 
Federal Government is seated here. It affects Maryland and 
Virginia substantially as well.
    And I would just add with regard to the electoral college, 
I kind of, I think, share your view on it. We don't expect 
there would be any change. We have three votes in the electoral 
college now, and we expect with statehood, we'll have three 
votes in the electoral college.
    [Gavel sounding.]
    Ms. Norton. Thank you very much for that response.
    Ms. Tlaib? I am sorry.
    Mr. Sarbanes?
    Mr. Sarbanes. Thank you. Excuse me. Thank you, Madam Chair, 
and congratulations on your advocacy on this issue.
    This is a historic day and I want to congratulate the 
District of Columbia. I want to thank all the advocates and the 
city officials who have come here today and have stayed for the 
entire hearing to demonstrate their support for D.C. Statehood.
    The Congress of the United States--the House of 
Representatives, at least--on March 8 of this year passed the 
For the People Act.
    It was the first bill we introduced, a comprehensive effort 
to restore our democracy with stronger voting opportunities, 
registration and voting, accountability in government, campaign 
finance reform.
    As that bill was coming together, the narrative around it 
was to give people their voice back--that too many Americans 
all across the country feel that their voice is not respected--
that they don't have the power in their own democracy that they 
deserve.
    And as we said those kinds of words over and over again, it 
became very clear that there needed to be some statement 
contained within the four corners of H.R. 1 with respect to 
D.C. Statehood.
    I want to thank Ms. Norton for pushing very hard for that 
to put findings, language into H.R. 1 that says that Congress 
finds that the District of Columbia residents deserve full 
congressional voting rights and self-government, which only 
statehood can provide.
    That passed the House of Representatives. You have moved 
this campaign, this effort, for D.C. Statehood to a new place 
and I want to congratulate you for that.
    It also can be observed that if we can finally achieve 
this, if we can grant D.C. the statehood that it--that it 
deserves, it is not a gift.
    This is something that the residents of the District of 
Columbia have earned over the course of their history. You have 
earned it. You serve your country. You paid your taxes.
    This is something that is--that is owed to the residents of 
the District of Columbia by this Nation, and that is why some 
of us feel so strongly about it.
    There is a path. This bill, H.R. 51, is the path. I don't 
understand. I must tell you, I have listened carefully to the 
arguments that are being thrown up against this bill on the 
other side and it sounds like angels dancing on the head of a 
pin.
    It doesn't make a whole lot of sense to me because I don't 
think there really is a good powerful rationale to object to 
H.R. 51.
    Mayor Bowser, you kind of answered the question I was going 
to ask you in response to Congresswoman Pressley.
    But talk a little bit more, if you would, about what it has 
meant to the residents of the District of Columbia to have been 
treated essentially as second-class citizens for so long.
    What does it mean to carry that around on your shoulders as 
a resident and what would it mean to D.C. residents if, 
finally, they could throw off the burden of that second-class 
citizenship and have D.C. Statehood and full voting rights 
embraced by the Congress of the United States?
    Mayor Bowser. Well, thank you for that. Thank you for that 
question, Congressman.
    Certainly, I described at the beginning I was born and 
raised here and it would not be a simple question for me just 
to up and move to another state to get the rights that are due 
me as a taxpaying American citizen.
    It is a great indignity, having been twice elected by the 
people of the District of Columbia as their chief executive and 
three times elected as a legislator, that I would have to come 
to this Congress to appeal to it not to overturn the laws that 
have been duly passed by the D.C. Council and signed by its 
mayor.
    It is a great indignity when great questions affecting this 
country we have nobody to call in the Senate to speak for us.
    When there is a great debate about who sits on the Supreme 
Court, for example, who will decide how we have health care, 
how women will be able to exercise their rights, we have no 
voice. We have no one to call to speak for us.
    Yet, we pay more taxes per capita than any state. Yet, we 
pay more taxes than 22 states. This Congress has the authority, 
the full constitutional power, to correct this problem of our 
democracy and this political issue.
    It squarely lies in the hands of the Congress to fix.
    Mr. Sarbanes. Thank you. I yield back.
    Ms. Norton. I thank the gentleman.
    Ms. Tlaib?
    Ms. Tlaib. Thank you, Madam Chair.
    Mayor Bowser, is it true that you hung flags with 51 stars 
all over your city?
    [Laughter.]
    Mayor Bowser. Thank you, Congressman.
    And I am glad you asked me that because we revere our flag 
and we think it is more perfect when every taxpaying American 
is represented on that flag.
    Ms. Tlaib. I would love one.
    Mayor Bowser. Yes. You have got it.
    Ms. Tlaib. Yes. I would love to hang it outside of my 
office.
    [Applause.]
    Ms. Tlaib. One of my mentors said, you know, you got to put 
it out there. You got to claim it, Rashida, and it will happen. 
So I appreciate your leadership and your courage in showing and 
having people sense what the possibility could be.
    Mayor Bowser. Absolutely.
    Ms. Tlaib. And I apologize if this is redundant or if folks 
covered this. But, you know, it is important. You know, one of 
the things that we constantly talk about is no taxation without 
representation was one of the rallying cries of the American 
Revolution, and the full phrase was ``taxation without 
representation is tyranny.''
    Mayor Bowser. Yes.
    Ms. Tlaib. One of the grievances included in the 
Declaration of Independence was imposing taxes on us without 
our consent. More than 200 years later, tyranny in the form of 
taxation without representation remains in the District of 
Columbia.
    D.C. residents pay full Federal taxes but have no vote on 
Federal laws that govern them and Congress has the final say on 
all D.C. laws.
    D.C. paid more than $28 billion in Federal taxes in Fiscal 
Year 2018. The last two states admitted to the Union, Alaska 
and Hawaii, paid approximately $15 billion combined in 2018.
    So, Mr. DeWitt, D.C. pays more than how many other states 
in Federal taxes?
    Mr. DeWitt. In terms of the per capita, we are the highest.
    Ms. Tlaib. How much does D.C. pay in Federal taxes per--I 
mean, how much--where does D.C. rank compared to states and 
Federal taxes paid per capita? You said the highest out of all 
of them.
    Mr. DeWitt. We are----
    Ms. Tlaib. How much does the state that pays the highest 
Federal tax per capita--how much does the state that pays the 
highest Federal tax per capita--what is the second?
    Mr. DeWitt. So we pay--we remit to the IRS about $28 
billion, as you said.
    Ms. Tlaib. Yes.
    Mr. DeWitt. We get about a little less than $4 billion from 
the Federal Government. Even when you look at it on the 
individual income tax filing, we file $6 billion and we still--
and we get $4 billion.
    So no matter how you look at it, we pay more taxes than we 
get in benefits.
    Ms. Tlaib. So I read that more than double--this is double 
what the next highest state pays in Federal taxes. That is what 
I was trying to get to.
    Yet, that they are deprived of having their elected 
officials vote in Congress, one of the most fundamental 
principles underlining our Constitution and anybody that knows 
me knows I uphold the Constitution as much as I can.
    I put my country first by doing that and I feel in many 
ways all the residents of the Washington D.C. area--in the 
District of Columbia are being denied access to that 
representation.
    I have to ask you, Mr. Miller, thank you. Thank you so much 
for your 28 years of service in the military and serving our 
country.
    As a D.C. resident, do you believe these same Members of 
Congress who oppose D.C. Statehood are denying you 
representation, a cornerstone of democracy, which they thank 
you for safeguarding?
    Mr. Miller. Well, thank you for that, Congresswoman.
    Yes, absolutely. We--and I think you can see as you came in 
the passion of the--we had a lot of D.C. veterans out there 
today.
    That is why I called them patriots because they weren't 
just veterans. They were passionate veterans--patriots. And I 
think that, certainly, they would want all of our members who 
are in support from both Houses because, you know, they serve, 
and especially at our conventions.
    They belong to a lot of veteran service organizations, and 
so they are there with their fellow members from other states. 
And their fellow veterans are saying, hey, you know, what is 
your position or what is your congressional position on certain 
issues, and they can't even say we have one.
    And so they can't even get into the dialog with their own 
fellow veterans, who they serve next to in the service. And so 
I think that it is very necessary that both Houses get together 
and stand up, like I said, like we have stood up for them.
    Ms. Tlaib. And thank you, Mr. Miller.
    I want folks to know what I learned growing up in the city 
of Detroit is that transformative change doesn't happen because 
it starts in the halls of Congress.
    It happens because of movement work--the things that happen 
in the streets, grassroots movement work like I have seen.
    The first day I got here people asked me, will you help 
us--will you help us get representation--will you help us get 
access to have a Member of Congress vote on our behalf.
    And I want you to know it will happen the more you all 
demand it. So I really appreciate your courage, all of you, in 
pushing this forward, and I thank you and I look forward to 
voting for this.
    Mr. Raskin. Will the gentlelady yield?
    Ms. Tlaib. Yes, I will yield.
    Mr. Raskin. The argument has been made, Madam Chair, that 
people are moving to Washington, DC. knowing that they will be 
disenfranchised. But they are not moving to Washington, DC. in 
order to become disenfranchised.
    And all of the Federal territories that we have admitted as 
states had people who moved there knowing full well that at 
least at the beginning they would not have voting rights.
    If we used the rationale of the gentleman from Texas, none 
of those territories, none of those republics including Texas 
itself, ever would have been admitted because the people living 
there knew that they were disenfranchised under our system.
    The inescapable imperative of American history is to give 
everybody equal rights, equal citizenship, and the right to 
participate in our government.
    I yield back. Thank you for yielding.
    Ms. Norton. The gentlewoman's time has expired.
    Ms. Ocasio-Cortez?
    Ms. Ocasio-Cortez. Thank you, Chairwoman, and I would like 
to join in the chorus applauding you on this historic day and 
this historic day for the people of the District of Columbia.
    This has been a long fight. I believe that we will achieve 
our goal.
    I come from a people who are also disenfranchised in the 
United States. My family is from Puerto Rico. I have family 
that have been born without the right to a Federal vote and I 
have family that, even in the aftermath of Hurricane Maria, 
have died without the right to vote and I wish that upon no 
citizen of the United States of America.
    Where the disenfranchisement of Puerto Ricans is rooted in 
the history--the colonial and imperialist history that we have 
had and policies of the United States, the issue of D.C. 
Statehood is rooted in a different evil in our history, which 
is the history of slavery in the United States.
    When we talk about dealing with that history today, and 
there are so many people that say, why do we need to talk about 
this--this was, quote, unquote, ``so long ago,'' which it is 
not so long ago--it is because our policies today uphold the 
injustices that were enacted during slavery.
    I believe that this is one of them. On April 16, 1862, 
through the Compensation Emancipation Act, it was the District 
of Columbia that was the first to free enslaved people in the 
United States of America, right here on this hallowed land. The 
first.
    Meanwhile, surrounding areas remained unfree and D.C., 
here, this ground blazed a trail of vision for equality and 
justice in the United States, and many people sought refuge 
from the tyranny of slavery right here in the District of 
Columbia.
    And it is a profound injustice and an irony, a thick irony, 
of our history that the people who fled here to the District of 
Columbia to flee slavery because of the enlightenment of this 
community are now disenfranchised because of that very act.
    And so the descendants--many people who are the descendants 
of those who were freed under the tyranny of slavery are now 
disenfranchised today in American history. We cannot stand for 
that, and to uphold and to deny--to deny the statehood of the 
District of Columbia is to deny the impact of slavery in 
America.
    It is a form of denial of our history, and in order for us 
to achieve the full-bore justice and democracy that we promise, 
we need to give people in the District of Columbia the right to 
vote.
    We have to do that through the recognition of statehood, 
through equal citizenship, and the elimination of institutions 
of second-class citizenship in the United States of America if 
we wish to live up to the ideals of democracy, of freedom, and 
a true republic that we have today.
    But with that being said, we need to, I think, also 
highlight the very real impacts of that disenfranchisement.
    Ms. Bowser, how does D.C.'s current status affect 
children--elementary school students in the District of 
Columbia?
    Mayor Bowser. Well, thank you, Congresswoman.
    We sometimes see efforts from the Congress to move 
legislation in the District that doesn't exist in their own 
states and we have seen that around issues of public education.
    Ms. Ocasio-Cortez. And in what ways have we seen disparate 
impacts?
    Mayor Bowser. We have--I think you recognize that we have a 
three-sector system in our city. We have, over many years of 
local investment and transformation, changed opportunities for 
public education.
    We have traditional schools. We have public charter 
schools, and the Congress has also invested in vouchers.
    Ms. Ocasio-Cortez. Thank you, Ms. Bowser.
    I also want to clarify that throughout this hearing we have 
heard and we have seen people say that there are constitutional 
oppositions to this, and there is an argument over that.
    But earlier this year when the House considered H.R. 1, the 
For the People Act, there was a Republican amendment that was 
filed that expressed the sense of Congress that D.C. Statehood 
in any case, including considering of a constitutional 
amendment--in any case should, quote, ``never become a state.''
    Now, we have to ask ourselves why that unilateral 
opposition and partisan opposition exists to the statehood and 
enfranchisement of the people of Columbia, and overwhelmingly 
we have to see that when each of these grounds continue to be 
eroded and we still oppose enfranchisement of the District of 
Columbia, we are upholding institutions of injustice.
    And I want to thank all of our witnesses here today. I, 
again, want to congratulate our chairwoman on a historic 
hearing and everyone here that is fighting for what is right.
    Thank you very much.
    Mayor Bowser. Thank you, Congresswoman.
    Ms. Norton. I informed the ranking member that I believe 
all members have been heard and I will therefore ask a question 
and the ranking member or any member he designates can then ask 
a question.
    I would just like to make sure the record is clear on the 
size of the District because having the District at a size--
having the capital at a--or the enclave at a size that is 
smaller than today may raise some questions and so I would like 
to draw that question out.
    We know that the Congress has plenary authority over the 
District of Columbia and we recognize that the size may not 
exceed a hundred square miles.
    Now, Congress has changed the size of the District twice. 
The first time is important to note because it was in 1791 when 
it amended the southern boundaries of the District. The reason 
that is important is because not only did 13 Framers, including 
James Madison, vote for the amendment but that was contemporary 
with the Constitution itself.
    So it says that Congress knew that the size could be 
reduced. Not exceeded more than 100 square miles but reduced.
    Then, again, in 1846 Congress reduced the size and that 
time it was by about 30 percent and, apparently, all that was 
needed was that Virginia asked for its land back and it got its 
land back.
    Now, many of our colleagues on the other side believe 
themselves to be originalists or textualists.
    Mr. Thomas, let me ask you a question. Do the original 
meaning of the text--does the original meaning or does the text 
of the district clause indicate that Congress cannot reduce the 
District's size?
    Mr. Thomas. The constitutional text only provides for a 
maximum size and it does not provide----
    Ms. Norton. Thank you, Mr. Thomas.
    If a court looked beyond the original meaning or the text 
of the district clause, would it find legislative history 
indicating that the Framers intended to impose a minimum size 
on the District of Columbia?
    Mr. Thomas. The legislative history is--has certain 
indications. There were attempts to set different sizes that 
were rejected. There were attempts to make the size of the 
government permanent.
    Most of those did not make it. Those did not make it into 
the text of the Constitution and we do have some indications 
that there was a--there was a sense that Congress would have 
discretion in deciding the size and location.
    So I wouldn't say we have definitive legislative history. 
But I don't believe that there is strong legislative history 
for a established minimum--for a minimum----
    Ms. Norton. Congressional matter, in other words.
    The district clause does not--I can't find in the district 
clause specification of the location or the minimum size of the 
Federal district.
    Mr. Thomas. Correct.
    Ms. Norton. Again, I am looking like an originalist at the 
Constitution. What does that suggest about the authority of 
Congress, if it is not in the Constitution, to determine the 
minimum size of the District of Columbia?
    Mr. Thomas. As I suggested previously, there is no textual 
limitation and so the suggestion would be the fact that there 
is a maximum limitation that Congress was provided the 
discretion to decide to either set it at that maximum or set it 
at something lower.
    Ms. Norton. So it is clear the District couldn't exceed, 
perhaps because they didn't want the District to encroach on 
somebody else's land.
    But whatever was the reason it couldn't exceed--it couldn't 
expand beyond that hundred square miles.
    Mr. Raskin. Will the gentlelady yield?
    Ms. Norton. I will yield to the gentleman.
    Mr. Raskin. The point is exactly as you say. There is a 
constitutional ceiling but there is no floor, which then 
returns us to the text of Article 1 Section 8 Clause 7, which 
says that Congress shall exercise exclusive legislation in all 
cases whatsoever over the District.
    So, presumably, it is up to Congress to set the size. I 
yield back.
    Ms. Norton. Well, the important point here is that I looks 
like the Framers understood that they couldn't put everything 
in the Constitution.
    Mr. Thomas, the District clause does give Congress, as the 
gentleman said, plenary authority--that is all the authority--
over the District. Does the case law suggest that the Congress 
has the authority to determine the minimum size of the 
District?
    Mr. Thomas. Congresswoman, the--there was a Supreme Court 
challenge to the retrocession to Virginia. However, because the 
retrocession occurred 30 years after the retro session the 
court declined to reach the final--the final resolution saying, 
essentially, that the case had been brought too late and that 
the court was going to essentially hold that the issue was 
estopped.
    There was some dicta in there that would suggest that it 
might be a political question, meaning that it might be--the 
decision regarding retrocession of Virginia might have been 
something not amenable to Supreme Court review. But that is not 
a holding of the case. It is just dicta.
    Ms. Norton. Yes. It is too late, in other words. That was 
almost a hundred years ago. It was too late to raise such a 
question.
    I want to ask the ranking member if he has any questions, 
by the way, while you are--if you will give me a second, 
because 51--the notion that there is a flag floating around 
with 51--with 51 stars emphasize that that is the flag to which 
the District aspires and maybe we should show people what that 
flag looks like. See, you can't even tell the difference. What 
is the harm?
    [Applause.]
    Ms. Norton. I am pleased to yield to my good friend, the 
ranking member.
    Mr. Jordan. I thank the chair and I do want to thank all 
our witnesses for being her today for this hearing.
    Maybe just a few things that were raised by the gentlelady 
from New York in her questioning--questions about education. So 
maybe I will come to you, Mayor.
    Do you support the Opportunity Scholarship Program?
    Mayor Bowser. We have supported the three-sector approach, 
Congressman.
    Mr. Jordan. The SOAR Act?
    Mayor Bowser. Yes.
    Mr. Jordan. Yes. And we have to--I believe, Madam Chair, we 
have to--we have to reauthorize----
    Ms. Norton. Would the gentleman yield? She didn't say what 
the three-sector approach was. Nobody knows what you are 
talking about.
    Mr. Jordan. Well, I know what it is. But we will let the 
mayor say it.
    Mayor Bowser. The SOAR Act.
    Mr. Jordan. Yes, SOAR Act. Private schools, public schools, 
Opportunity Scholarship Program, right?
    Mayor Bowser. Yes.
    Mr. Jordan. All three.
    Mayor Bowser. Yes.
    Mr. Jordan. And we have to reauthorize that sometime soon. 
So you support reauthorization of that Act?
    Mayor Bowser. Yes.
    Mr. Jordan. Do you support the president's increase in 
funding for that Act?
    Mayor Bowser. I do.
    Mr. Jordan. Okay. Madam Chair, I yield back.
    Ms. Norton. I thank the gentleman for yielding.
    Mr. Raskin. Madam Chair?
    Ms. Norton. Does the gentleman have--first of all, I have 
not introduced all of the letters that have come from 
organizations. At some point, I will want to make sure that 
those letters are introduced for the record.
    The gentleman have a question?
    Mr. Raskin. It is a submission for the record. I can do it 
now or I can do it later.
    Ms. Norton. Well, you can submit them after the fact.
    Mr. Raskin. Well, the question was raised, Madam Chair, 
whether the Trump Hotel would be in the new state or whether it 
would continue to enjoy the direct supervision of the GSA and 
the president of the United States.
    It is amazing to me that the political rights of 700,000 
people might be conditioned on the business interests of one 
man.
    But in any event, the Trump Hotel would be treated just 
like the other private hotel that is located on Federal land, 
the Hotel Monaco, which is also in downtown D.C.
    And there is just this article from Politico called ``GSA 
Ignored Constitution on Trump D.C. Hotel Lease'' that has some 
of the details of these matters.
    I would like to submit it for the record.
    Ms. Norton. So ordered.
    Ms. Norton. I believe we have heard from everyone present. 
Without objection, the following documents shall be made a part 
of the record:
    Legal analysis from the American Civil Liberties Union, 
``Finding H.R. 51 Constitutional,'' testimony of former George 
W. Bush Administration Assistant Attorney General from the 2014 
Senate Homeland Security and Government Affairs Committee 
hearing on D.C. Statehood declaring H.R. 51 to be 
constitutional.
    Also, a list of more than a 128 organizations including 104 
national organizations that have endorsed H.R. 51.
    I understand that there is another member that wants to ask 
a question. Mr. Welch did not have the opportunity.
    Mr. Welch, do you have a question?
    Mr. Welch. I do. Thank you. And by the way, thank you for 
all your years of leadership on this, Madam Chair. You have 
been an inspiration for us. We really appreciate all you are 
doing to try to bring statehood to D.C.
    The Twenty-Third Amendment of the Constitution allows D.C. 
to participate in Presidential elections. If enacted, H.R. 51 
would admit the state of Washington D.C. but leave the Twenty-
Third Amendment in place.
    As such, the residents in a reduced D.C. would likely 
control three electoral votes, and as a practical matter it 
seems likely the Twenty-Third Amendment would be repealed soon 
after the state of Washington, DC. is admitted. Congress and 
the states would not want the few residents of the reduced D.C. 
to have so much power over the election of the president.
    Mr. Thomas, reasonable people can disagree on whether as a 
matter of policy the Twenty-Third Amendment should be repealed. 
However, does the Constitution require that the Twenty-Third 
Amendment be repealed before admission?
    Mr. Thomas. Congressman, if the--if the Twenty-Third 
Amendment is not repealed, it will still be in effect and it 
will, of course, co-exist with the new--the new state, which 
would not have those electoral votes.
    Again, setting aside the outstanding questions regarding 
D.C. Statehood, the question would be what effect would the 
Twenty-Third Amendment have at that point. What would be left 
of the Twenty-Third Amendment because the statute--the statute 
can't really affect that.
    Mr. Welch. Right. And is there anything in the text of the 
legislative history of the Twenty-Third Amendment that imposes 
a minimum size on D.C.'s population or geography?
    Mr. Thomas. I believe in the committee hearings there were 
some discussion of why a constitutional amendment was so 
important in relationship to some other proposals to give a 
vote. But I do not believe that the Twenty-Third Amendment 
addressed a requirement of geographical continuity.
    Mr. Welch. Okay. Let me ask a last question.
    There are people who argue that the Twenty-Third Amendment 
would be moot or a dead letter if H.R. 51 were enacted, either 
because H.R. 51 repeals the enabling legislation for the 
Twenty-Third Amendment or because the Twenty-Third Amendment 
would no longer serve a purpose or would lead to an absurd 
result.
    Do you agree with the view that the Twenty-Third Amendment 
would be moot or a dead letter under H.R. 51?
    Mr. Thomas. So I believe this is a novel constitutional 
issue. It actually can be relatively complex because the 
assignment of an elector is not given to the people of the 
District. It is actually given to the District itself or the 
District government.
    And the assignment of Electoral College--electors to the 
Electoral College is not traditional exercised by individuals 
but has historically been exercised by states.
    So I feel like there are a number of complexities in the 
Twenty-Third Amendment that would give--you know, it would 
just--it would just make for a series of novel constitutional 
questions that I don't think have obvious answers.
    Mr. Welch. Okay. Thank you very much. I thank the panel and 
I yield back. Thank you, Mayor.
    Mayor Bowser. Thank you, Congressman.
    Ms. Norton. I thank the gentleman for his question and I 
would like to thank all of our witnesses who have come today 
and have sat through the entire hearing so that they could all 
be asked questions.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for their response.
    I ask our witnesses to please respond as quickly as you are 
able. Let me also announce that the committee will stand in 
recess until after the last series of floor votes and we will 
reconvene--that is, the members of the committee only--at 4:30 
to consider the motion by the gentleman from Ohio.
    Members and staff should be advised that the committee 
intends to resume promptly at 4:30 and all are urged to be on 
time.
    The committee stands in recess subject to the call of the 
chair.
    [Recess.]
    Ms. Norton. I appreciate Members coming back. This won't 
take long, I don't believe.
    The committee shall come to order now. It is now in order 
to consider the unfinished business of the committee, which is 
the motion offered by the gentleman from Ohio, Mr. Jordan.
    The clerk will designate the motion.
    The Clerk. A motion offered by Mr. Jordan to subpoena 
Councilmember Jack Evans.
    Ms. Norton. The gentlewoman from the Virgin Islands is 
recognized for a motion.
    Ms. Plaskett. Thank you.
    At this time, Madam Chairwoman, I make a motion to table 
this matter.
    Ms. Norton. All those in favor of tabling the motion on the 
floor, say aye.
    Those opposed, no.
    All those opposed?
    In the opinion of the chair, the ayes have it, and the 
motion is tabled.
    Mr. Jordan. I ask for a roll call vote.
    Ms. Norton. A roll call vote has been requested. The clerk 
will call the roll.
    The Clerk. Mr. Cummings?
    Mrs. Maloney?
    Mrs. Maloney. Aye.
    The Clerk. Ms. Norton?
    Ms. Norton. Aye.
    The Clerk. Mr. Clay?
    Mr. Lynch?
    Mr. Lynch. Aye.
    The Clerk. Mr. Cooper?
    Mr. Cooper. Aye.
    The Clerk. Mr. Connolly?
    Mr. Connolly. Aye.
    The Clerk. Mr. Krishnamoorthi?
    Mr. Krishnamoorthi. Aye.
    The Clerk. Mr. Raskin?
    Mr. Raskin. Aye.
    The Clerk. Mr. Rouda?
    Mr. Rouda. Aye.
    The Clerk. Ms. Hill?
    Ms. Hill. Yes.
    The Clerk. Ms. Hill votes yes.
    Ms. Wasserman Schultz?
    Ms. Wasserman Schultz. Yes.
    The Clerk. Ms. Wasserman Schultz votes yes.
    Mr. Sarbanes?
    Mr. Welch?
    Ms. Speier?
    Ms. Kelly?
    Mr. DeSaulnier?
    Mr. DeSaulnier. Aye.
    The Clerk. Mr. DeSaulnier votes yes.
    Mrs. Lawrence?
    Ms. Plaskett?
    Ms. Plaskett. Aye.
    The Clerk. Ms. Plaskett votes yes.
    Mr. Khanna?
    Mr. Khanna. Aye.
    The Clerk. Mr. Khanna votes yes.
    Mr. Gomez?
    Ms. Ocasio-Cortez?
    Ms. Pressley?
    Ms. Tlaib?
    Ms. Tlaib. Yes.
    The Clerk. Ms. Tlaib votes yes.
    Mr. Jordan?
    Mr. Jordan. No.
    The Clerk. Mr. Jordan votes no.
    Mr. Gosar?
    Ms. Foxx?
    Mr. Massie?
    Mr. Massie. No.
    The Clerk. Mr. Massie votes no.
    Mr. Meadows?
    Mr. Meadows. No.
    The Clerk. Mr. Meadows votes no.
    Mr. Hice?
    Mr. Hice. No.
    The Clerk. Mr. Hice votes no.
    Mr. Grothman?
    Mr. Grothman. No.
    The Clerk. Mr. Grothman votes no.
    Mr. Comer?
    Mr. Cloud?
    Mr. Gibbs?
    Mr. Gibbs. No.
    The Clerk. Mr. Gibbs votes no.
    Mr. Higgins?
    Mr. Higgins. No.
    The Clerk. Mr. Higgins votes no.
    Mr. Norman?
    Mr. Roy?
    Mr. Roy. No.
    The Clerk. Mr. Roy votes no.
    Mrs. Miller?
    Mrs. Miller. No.
    The Clerk. Mrs. Miller votes no.
    Mr. Green?
    Mr. Armstrong?
    Mr. Armstrong. No.
    The Clerk. Mr. Armstrong votes no.
    Mr. Steube?
    Mr. Steube. No.
    The Clerk. Mr. Steube votes no.
    Mr. Keller?
    Mr. Keller. No.
    The Clerk. Mr. Keller votes no.
    Ms. Norton. Is there any other member wishing to vote or 
wishing to change her or his vote?
    Mr. Gomez. How am I recorded?
    Ms. Norton. You are not recorded, sir.
    The Clerk. Mr. Gomez is not recorded.
    Ms. Norton. Would you say that again?
    Mr. Gomez. Aye.
    The Clerk. Mr. Gomez votes yes.
    Ms. Pressley. Pressley, how am I recorded?
    The Clerk. Ms. Pressley is not recorded.
    Ms. Pressley. Aye.
    The Clerk. Ms. Pressley votes aye.
    Ms. Norton. Any other member wishing to vote or to change 
her vote?
    [No response.]
    Ms. Norton. The clerk shall report the vote.
    [Pause.]
    The Clerk. Madam Chair, there are 16 yeses, 12 nays.
    Ms. Norton. On this vote, there were 16 ayes and 12 nays. 
The motion is carried.
    There being no further business----
    Mr. Jordan. Madam Chair, I just have one final thing, if I 
could real quick?
    Ms. Norton. I recognize the ranking member.
    Mr. Jordan. Madam Chair, we just have a letter that every 
member of the Republican--on the Republican side has signed. 
Pursuant to House Rule XI, clause 2(j)(1), we write to notify 
you that we are exercising our right to call witnesses selected 
by the minority to testify.
    And so we have that letter that we would like to have you--
present that to you now.
    Ms. Norton. Thank you very much, Mr. Jordan.
    There being no further business, the committee stands 
adjourned.
    Mr. Meadows. Stands in recess.
    Ms. Norton. Why would it stand in recess?
    Mr. Meadows. Because we have asked for our minority 
witnesses.
    [Pause.]
    Ms. Norton. The committee will come to order. The 
minority's request will be honored--will be considered and 
honored.
    There being no further business, the committee stands----
    Mr. Connolly. Parliamentary inquiry, Madam Chairman. I am 
not sure I understand.
    Ms. Norton. Yes, sir.
    Mr. Connolly. Could you please clarify, what do you mean 
``honored''?
    Ms. Norton. The committee has asked for a minority day.
    Mr. Connolly. Ah.
    Ms. Norton. And that is something we will consider, and if 
it is in order, it will be honored.
    Mr. Connolly. I would just note for the record----
    Ms. Norton. I have not seen this until this moment.
    Mr. Connolly. Right. I would just--I certainly, Madam 
Chairman, am in favor of minority rights. I was in favor of 
minority rights for the eight years we were in the minority. I 
don't remember a single member of the other side of the aisle 
ever supporting us when the then-chairman suppressed our right 
to have witnesses.
    And I know Mrs. Maloney will remember the most infamous 
one, where a coed from Georgetown, that was our witness, at a 
table talking about religious freedom and reproductive rights, 
we were denied even that.
    And so I certainly look forward to having this dialog and 
this new-found enthusiasm and zealotry for having minority 
witnesses.
    Thank you, Madam Chairman.
    Mr. Jordan. Madam Chair? Madam Chair?
    Ms. Norton. Mr. Jordan. Mr. Jordan?
    Mr. Jordan. Well, I would just point out to my friend from 
Virginia, obviously different--different circumstance. I wasn't 
the chair of the committee. All I know is this week we have 
asked for two witnesses, and we have been denied both witnesses 
on two successive days, two different hearings.
    And all we are pointing out here is we would like a 
minority hearing day with those witnesses that we have asked to 
come. One of them was the inspector general for the District, 
and yesterday we had a hearing with the head of the inspector 
generals association, and he wasn't allowed to come.
    So that is all we are asking, and twice this week, we have 
been turned down. So that is why we have sent the letter that 
every single Republican has signed, and we appreciate the 
chair's willingness to deal with it in the appropriate fashion.
    Ms. Norton. I want to say, Mr. Jordan, you are entitled--
you were entitled today to one witness. You chose your witness, 
and then you came up with yet another witness that you wanted. 
We are trying to do regular order here. We are trying to be 
fair.
    And there is no--there is no attempt to keep you from 
having the number of witnesses to which you were entitled. What 
the gentleman from Virginia noted was that we were not given 
the same courtesy. We don't want to do tit-for-tat. We want you 
to have exactly what the rules allow, and that is what the 
rules are allowing.
    And that is what the rules are allowing, and if your 
minority day is in order, that is what should happen.
    Mr. Jordan. Thank you.
    Ms. Norton. So I thank the cooperation of my good friends 
on the other side.
    There being no further business, the committee stands 
adjourned--recessed. I am sorry. There is a difference in those 
words.
    [Whereupon, at 4:50 p.m., the committee recessed.]

                                 <all>
</pre></body></html>
